<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-701, Part 5]
[From the U.S. Government Publishing Office]


                                                 S. Hrg. 111-701, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                             APRIL 21, 2010


         Printed for the use of the Committee on Armed Services



















DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2011--Part 5  EMERGING THREATS AND CAPABILITIES
























                                                  S. Hrg. 111-701 Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                             APRIL 21, 2010


         Printed for the use of the Committee on Armed Services

                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-158 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                     BILL NELSON, Florida, Chairman

ROBERT C. BYRD, West Virginia        GEORGE S. LeMIEUX, Florida
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         ROGER F. WICKER, Mississippi
EVAN BAYH, Indiana                   SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
JEFF BINGAMAN, New Mexico            SUSAN M. COLLINS, Maine
EDWARD E. KAUFMAN, Delaware

                                  (ii)
















                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
   Nonproliferation Programs at the Departments of Defense and Energy
                             april 21, 2010

                                                                   Page

Nacht, Hon. Michael L., Assistant Secretary for Global Strategic 
  Affairs, Office of the Under Secretary of Defense for Policy...     4
Baker, Kenneth E., Acting Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................    14

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                            U.S. Senate    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

   NONPROLIFERATION PROGRAMS AT THE DEPARTMENTS OF DEFENSE AND ENERGY

    The subcommittee met, pursuant to notice, at 10:12 a.m. in 
room SR-222, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson and 
LeMieux.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Roy F. Phillips, professional staff member.
    Minority staff member present: Dana W. White, professional 
staff member.
    Staff assistants present: Paul J. Hubbard and Jennifer R. 
Knowles.
    Committee members' assistants present: Greta Lundeberg, 
assistant to Senator Bill Nelson; and Brian Walsh, assistant to 
Senator LeMieux.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good morning. I want to welcome our 
witnesses.
    The Subcommittee on Emerging Threats and Capabilities is 
meeting today to hear from the Department of Defense (DOD) and 
the Department of Energy's (DOE) National Nuclear Security 
Administration (NNSA) and their respective efforts to prevent 
the proliferation of nuclear weapons and materials.
    We have with us this morning Dr. Michael Nacht, the 
Assistant Secretary of Defense for Global Security Affairs, and 
Ken Baker, the acting Deputy Administrator for Nuclear 
Nonproliferation.
    Also, we have a group of Russian university students who 
are in the United States to further their nonproliferation 
studies. They were, unfortunately, able to spend some 
additional time in the United States----[Laughter.]
    Therefore, they can attend our hearing this morning, thanks 
to the ash from the Icelandic volcano. I want to welcome you 
all, and I hope this experience in American democracy is 
valuable to you.
    The President has embarked on a three-pronged effort to 
reduce the spread of nuclear weapons, nuclear materials, and 
nuclear technology. As he has said in the Nuclear Posture 
Review (NPR), ``The threat of global nuclear war has become 
remote, but the risk of nuclear attack has increased. The most 
immediate and extreme threat today is nuclear terrorism.''
    Today, we will discuss the efforts at DOD and DOE to thwart 
the goals of these particular nuclear terrorists. Obtaining a 
global commitment to stop these potential terrorists is 
critical. The United States needs to have the global community, 
all of us, working together.
    Last week's Nuclear Security Summit, of which I had the 
privilege of attending part, with the participation of 47 key 
countries, was a good start. Now, that commitment needs to be 
sustained. Several countries, such as Canada, the United 
Kingdom, and Russia, have been in the effort from the 
beginning. Others have come on board since. But, the effort has 
to be global in order to be successful. We look forward to 
hearing more about the summit from our witnesses.
    To implement the renewed focus on securing materials and 
preventing proliferation, each of the two Departments has 
requested additional funds in fiscal year 2011. We fully 
support the nonproliferation efforts, and we also want to make 
sure that the additional funds are executable. We look forward 
to a good conversation this morning.
    Let me turn to our ranking member, Senator LeMieux.

              STATEMENT OF SENATOR GEORGE LeMIEUX

    Senator LeMieux. Thank you, Mr. Chairman.
    Thank you to the witnesses for being with us today and 
providing their valuable testimony.
    I want to thank you, Mr. Chairman, for calling this 
hearing. It's a critical time for our country as the world 
grapples with how to manage nuclear ambitions of rogue states 
and state sponsors of terror, most notably, Tehran. The 
proliferation of nuclear, biological, chemical, or radioactive 
material to rogue nations or terrorist organizations is perhaps 
the greatest single threat to global security. So, with these 
challenges in mind, I look forward to hearing from the 
witnesses about how we're going to confront these issues, these 
21st century threats, through nonproliferation.
    While the United States and Russia and its former republics 
retain most of the world's nuclear technology, expertise, and 
material, the Cold War is over and nonproliferation regimes, 
practices, and mores of the past 50 years will not thwart the 
threats of the next 50 years. The time of mutual assured 
destruction is over. Whether we admit it or not, the world has 
accepted a nuclear North Korea, and I fear we are prepared to 
accept a nuclear Iran. We are hearing today in the news of 
Iranian shock troops being positioned now in Venezuela, 
something that we have talked about in this committee as an 
emerging threat to this country, as well.
    We cannot talk about the future of nonproliferation without 
discussing our U.S. policy towards Iran, which is focused 
primarily on preventing Tehran from acquiring a nuclear weapon.
    Again, Mr. Chairman, I look forward to the testimony of our 
witnesses. I welcome our guests today and submit the rest of my 
statement for the record.
    [The prepared statement of Senator LeMieux follows:]
              Prepared Statement by Senator George LeMieux
    Thank you, Mr. Chairman. I'd also like to thank the witnesses for 
joining us this morning and for their many years of distinguished 
service.
    I want to thank the chairman for calling for this hearing. This is 
a critical time for our country as the world grapples with how to 
discourage Tehran's nuclear ambitions. The proliferation of nuclear, 
biological, chemical or radioactive material to a rogue nation or 
terrorist organization is perhaps the greatest single threat to global 
security. So, I look forward to hearing from the witnesses about how we 
are working to make our nonproliferation efforts relevant in the 21st 
century.
    While the United States and Russia and its former republics retain 
most of the world's nuclear technology, expertise and material, the 
Cold War is over and nonproliferation regimes, practices and mores of 
the last 50 years will not thwart the threats of the next 50 years. The 
time of ``mutual assured destruction'' is over. Whether we admit it or 
not, the world has accepted a nuclear North Korea. I fear we are 
prepared to accept a nuclear Iran. We cannot talk about the future of 
nonproliferation without discussing the U.S. policy toward Iran--which 
has focused primarily on preventing Tehran from acquiring a nuclear 
weapon.
    However, the record of the past year is discouraging. It is 
difficult to dispute that Iran is closer to possessing a nuclear 
weapons capability today than it was a year ago. According to 
Lieutenant General Burgess, the Director of the Defense Intelligence 
Agency, in his testimony before the full committee last week, he said 
that Iran could have enough weapon-grade uranium for one bomb within 
the next year. If Iran is allowed to possess a nuclear capability, it 
will result in a regional and possibly global cascade of proliferation.
    Even the idea of Iran obtaining this capability has changed the 
balance of power in the Middle East, in reports last week there is 
evidence that the Syrian Government has transferred long-range Scud 
missiles to Hezbollah. This is a significantly destabilizing action.
    Yet, we already hear some resigning themselves to a nuclear Iran. 
But are we prepared to manage this volatile region with deterrent 
concepts conceived during the Cold War? Would Iran's capability 
embolden violent groups currently engaged in terrorism and subversion 
in the region? At a time when the United States is reducing its nuclear 
arsenal, can we provide a credible extended deterrence to partners and 
allies who do not currently possess a nuclear capability? Given the 
possibility that Iran could acquire this capability within the next 
year, I hope our witnesses can help us understand how our current 
nonproliferation projects and programs can meet these near-term 
challenges.
    Beyond Iran, it is imperative that the nuclear nonproliferation 
regime and the rules-based international order that the United States 
and our allies have spent more than 60 years building is both credible 
and relevant. Global security relies on the belief that the United 
States will meet its commitments and guarantee consequences. I look 
forward to your testimony.
    Thank you, Mr. Chairman.

    Senator Bill Nelson. Okay. We're going to start with 
Secretary Nacht, Assistant Secretary for Global Strategic 
Affairs, and then we'll go to you, Mr. Baker.
    What I would like you all to do--your written statements 
are put in the record--is to take 5 or 7 minutes and share with 
us your ideas, and then we'll go to you, Mr. Baker, with the 
same thing, and then we'll get into some detailed questions.
    Mr. Secretary?

  STATEMENT OF HON. MICHAEL L. NACHT, ASSISTANT SECRETARY FOR 
  GLOBAL STRATEGIC AFFAIRS, OFFICE OF THE UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Dr. Nacht. Thank you, Chairman Nelson, Ranking Member 
LeMieux, and members of the subcommittee. It's my pleasure to 
appear before you today to discuss DOD's nonproliferation and 
threat reduction efforts, including the Proliferation Security 
Initiative (PSI) and the Cooperative Threat Reduction (CTR) 
Program.
    DOD is working hard to build upon our legacy of 
nonproliferation and threat-reduction successes, and to expand 
and adjust our programs to meet today's proliferation and 
emerging threats.
    A word about the changing strategic environment in DOD's 
strategy. Today, the threat environment posed by proliferation 
of weapons of mass destruction (WMD) is complex and 
unpredictable. President Obama recognizes the challenges of 
today's WMD threats, and he's pursuing a bold agenda to reduce 
proliferation dangers and to achieve the peace and security 
that comes from a world free of nuclear weapons.
    The recent diplomatic initiatives and policy reviews have 
increased broad awareness and expectations for the United 
States, DOD, and our international partners to work 
collaboratively to reduce and counter WMD threats.
    We have a threefold approach in DOD. First, we aim to 
support and rejuvenate multilateral nonproliferation 
initiatives and treaties. Second, we seek to reduce and 
eliminate WMD dangers at their source and in transit. Third, we 
seek to enhance our ability to detect and respond to emerging 
threats. Let me address each of these elements in turn.
    On strengthening the nonproliferation regime, we are 
accelerating efforts to work with our allies and partners to 
rejuvenate and reinforce this regime, starting with a renewed 
commitment to the international legal frameworks that serve as 
the foundation for our efforts. We're actively working to 
strengthen the Nonproliferation Treaty (NPT), which is the 
cornerstone of the nuclear nonproliferation regime. At the 
upcoming NPT Review Conference, starting next month, we will 
seek an outcome that reaffirms parties' commitment to the 
treaty and shores up its three pillars: nonproliferation, 
disarmament, and peaceful uses of nuclear energy.
    In addition, President Obama has committed his 
administration to pursue the ratification of a Comprehensive 
Test Ban Treaty (CTBT), because it restricts additional 
countries from developing, acquiring, and deploying nuclear 
weapons, and it hinders the ability of nuclear powers to 
develop new types of nuclear warheads. We will also seek a 
Fissile Material Cutoff Treaty (FMCT) that would ban the 
production of fissile material for use in nuclear weapons.
    DOD fully supports these efforts; and, in particular, the 
fiscal year 2011 budget request from DOD recognizes the 
nonproliferation value of these international agreements. It 
aims to fund technological improvements in instrumentation and 
software used for detection of treaty violations, such as air 
sample monitoring, analysis of seismic events, and improvements 
in infrasound detection. These measures will ensure compliance 
with the NPT, the CTBT, and the FMCT.
    The administration also recognizes the importance of a 
variety of multilateral activities and mechanisms that help to 
prevent proliferation, such as the PSI. PSI builds political 
support for counterproliferation, and it increases cooperation 
through multinational endorsement of the PSI Statement of 
Principles and participation in PSI exercises, 30 of which have 
been conducted since 2003.
    The U.S. Government has taken on an important new role this 
year by serving as the PSI focal point, providing support, 
improving information flow, and coordinating schedules of 
international activities among partners, consistent with the 
President's desire to turn the PSI into a durable international 
institution.
    The second element, on reducing and eliminating the 
threats, DOD's approach involves engaging in active 
international partnerships to reduce and eliminate WMD dangers, 
both at their source and in transit. The unprecedented 
gathering of 47 states to address these issues during the 
Nuclear Security Summit, just last week, represents a critical 
step in the President's commitment to secure vulnerable nuclear 
materials worldwide by the end of 2013.
    Over the years, Congress has expanded CTR's authorities and 
created new opportunities for the program to embark on these 
important national and international security priorities. This 
legislation enables the CTR program to address emerging WMD 
threats and to achieve longstanding WMD nonproliferation goals 
more effectively and comprehensively. Accordingly, new funding 
mechanisms provide DOD with additional resources to think and 
act beyond traditional projects and activities. As we move 
forward, four broad principles will guide our evolution and 
expansion: integration, responsiveness, stewardship, and 
cooperation.
    This year, we are taking real steps to exercise new 
legislative authorities that would expand the CTR program, 
across the globe, to reduce and eliminate emerging threats 
while simultaneously continuing our important work in Russia 
and states of the former Soviet Union.
    In accordance with our authorities and with full 
coordination with our interagency partners, in consultation 
with Congress, we are seeking a determination from the 
Secretaries of Defense and State to conduct CTR projects and 
activities with new partner countries outside the former Soviet 
Union to meet the President's broader nuclear nonproliferation 
agenda.
    The CTR program is DOD's mechanism to support the 
President's initiative, and the requested increase of $74.5 
million will support expanded security cooperation with Russia 
and additional efforts with new partner countries.
    Working with partner countries, DOE and other interagency 
partners, and consistent with our Centers of Cooperation 
Engagement model, we plan to support a Nuclear Security Center 
of Excellence in China and a Nuclear Energy Center with a 
nuclear security component in India, as was announced at last 
week's Nuclear Security Summit. By using the centers, countries 
and agencies involved will be able to provide lessons learned 
and an exchange of best practices without requiring access to 
actual material or weapon sites.
    DOD is similarly expanding our Biological Threat Reduction 
Programs (BTRPs), and we are requesting $56.9 million in budget 
increase to meet our new global health security requirements in 
support of the President's National Strategy for Countering 
Biological Threats and the 2010 Quadrennial Defense Review 
(QDR) recommendations from DOD.
    In addition to these expansion efforts, the BTRP continues 
to partner with former Soviet Union countries to enhanced 
biosafety and biosecurity and consolidate especially dangerous 
pathogens (EDPs).
    Additionally, CTR's chemical programs continue to assist 
Russia with safe, secure, and environmentally sound destruction 
of a portion of its chemical weapons nerve-agent stockpile that 
is most vulnerable to theft or diversion.
    The third element of DOD's approach, detecting and 
responding to emerging threats, involves improving our ability 
to respond to these dangers. For instance, instability 
resulting from the collapse of a nuclear-armed state would risk 
the global proliferation of nuclear material, weapons, or 
technology, posing a threat to our Homeland and the homelands 
of our allies. We must be prepared to detect threats and defend 
ourselves against WMD dangers. This includes enhancements to 
interdiction and elimination capabilities, as well as 
preparations to respond quickly to an attack, should our 
preventive and deterrent efforts fail.
    Senator Bill Nelson. Dr. Nacht, I need you to wrap up.
    Dr. Nacht. I am just about done, Senator.
    Our QDR identifies preventing proliferation and countering 
WMD as one of the top priority missions of DOD, and we'll be 
working closely with Special Operations Command (SOCOM) ability 
to counter WMD operations in establishing a Joint Task Force on 
Elimination (JTFE) Headquarters to plan, train, and execute WMD 
elimination operations.
    Other aspects of my testimony are included in my written 
statement in the record.
    Thank you very much.
    [The prepared statement of Dr. Nacht follows:]
                Prepared Statement by Dr. Michael Nacht
    Chairman Nelson, Ranking Member LeMieux, members of the 
subcommittee, it is my pleasure to appear before you to discuss the 
Department of Defense's (DOD) nonproliferation and threat reduction 
efforts, including the Proliferation Security Initiative (PSI) and the 
Cooperative Threat Reduction (CTR) Program. The Department is working 
hard to build upon our legacy of nonproliferation and threat reduction 
successes and to expand and adjust our programs to meet today's 
proliferation and emerging threats.
                strategic environment and dod's strategy
    Today, the threat environment posed by proliferation of weapons of 
mass destruction (WMD) is highly complex and unpredictable. As Director 
of National Intelligence Blair stated in his February 2010 testimony 
before the House Permanent Select Committee on Intelligence: pursuit 
and possible acquisition of WMD will continue well into the future. He 
recognized that the Intelligence Community ``continues to assess that 
many of the countries that are still pursuing WMD programs will 
continue to try to improve their capabilities and level of self-
sufficiency over the next decade. Nuclear, chemical, and/or biological 
weapons--or the technologies and materials necessary to produce them--
also may be acquired by states that do not now have such programs; 
terrorist, insurgent, or criminal organizations, acting alone or 
through middlemen.'' Such an intent to acquire WMD, combined with 
powerful cross-cutting global trends of the 21st century--such as 
technological advances, an increasingly interconnected global economy, 
the emergence of new strains of disease, the persistence of terrorism, 
black-market proliferation, and the frailty of strategically important 
states--create conditions that allow for dual-use technology, sensitive 
materials, and personnel with the scientific expertise to design and 
use those technologies to become increasingly accessible to potential 
state and non-state adversaries.
    President Obama recognizes the challenges of today's WMD threats 
and he is pursuing a bold agenda to reduce proliferation dangers and to 
achieve the peace and security that comes from a world free of nuclear 
weapons. Recent diplomatic initiatives and policy reviews have 
increased broad awareness and expectations for the United States, DOD, 
and our international partners to work collaboratively to reduce and 
counter WMD threats. Ongoing efforts include:

        <bullet> Presidential-led diplomatic initiatives, such as the 
        G8 Global Partnership Against the Spread of Weapons and 
        Materials of Mass Destruction, the Global Initiative to Combat 
        Nuclear Terrorism, and the Global Nuclear Lockdown Initiative;
        <bullet> Advancement of international nonproliferation and 
        disarmament frameworks, including last week's Nuclear Security 
        Summit, the recently signed New START Agreement between the 
        United States and Russia, and the upcoming Nuclear 
        Nonproliferation Treaty (NPT) Review Conference;
        <bullet> National-level strategies and policy reviews focusing 
        on WMD threats, including the 2009 National Strategy for 
        Countering Biological Threats, the 2010 Quadrennial Defense 
        Review (2010 QDR), and the 2010 Nuclear Posture Review (2010 
        NPR); and
        <bullet> Independent studies, such as the Commission on the 
        Prevention of Weapons of Mass Destruction, known as the Graham-
        Talent report, and the congressionally-commissioned 2009 
        National Academy of Sciences (NAS) study and report titled, 
        Global Security Engagement: A New Model for Cooperative Threat 
        Reduction.

    DOD is actively working to implement the President's vision. We 
have undertaken a series of policy reviews to develop a comprehensive 
approach to advance these goals and we are aligning our strategies and 
approaches accordingly. The 2010 QDR identified preventing WMD 
proliferation as one of six key challenges faced by the United States, 
and it recommended that the United States increase its efforts to 
secure vulnerable nuclear materials and expand the biological threat 
reduction program. Most recently, the 2010 NPR elevated the prevention 
of nuclear proliferation and nuclear terrorism to the top of the U.S. 
policy agenda and aligned U.S. nuclear weapons policies and posture to 
address these most pressing security threats.
    Combined, evolving and emerging WMD threats along with 
unprecedented efforts to reduce those threats have raised the profile 
and priority of the Department's nonproliferation and threat reduction 
programs and tools. As President Obama made clear in his April 2009 
speech in Prague, overcoming the twin dangers of WMD proliferation and 
WMD terrorism requires a comprehensive approach. DOD is aligning our 
programs to become more flexible, agile, and responsive to build upon 
our long legacy of securing our Nation and the world from WMD threats. 
Here our approach is three-fold: First, we aim to support and 
rejuvenate multilateral nonproliferation initiatives and treaties. 
Second, we seek to reduce and eliminate WMD dangers at their source and 
in transit. Third, we seek to enhance our ability to detect and respond 
to emerging threats.
               strengthening the nonproliferation regime
    For years we have worked with our allies and partners to develop a 
global nonproliferation infrastructure that can reduce our collective 
vulnerability to these weapons. The current network of initiatives, 
regimes, and treaties offers some important tools for advancing this 
critical agenda--but much more remains to be done. Today, we are 
accelerating efforts to work with our allies and partners to rejuvenate 
and reinforce the nonproliferation regime, starting with a renewed 
commitment to the international legal frameworks that serve as the 
foundation for our efforts.
    We are actively working to strengthen the Nonproliferation Treaty 
(NPT)--the cornerstone of the nuclear nonproliferation regime. At the 
upcoming NPT Review Conference in May 2010, we will seek an outcome 
that reaffirms parties' commitment to the treaty and shores up its 
three pillars: nonproliferation, disarmament, and peaceful uses of 
nuclear energy. We want to discourage the abuses of the treaty 
withdrawal provision and ensure that there are real consequences for 
treaty violations. At the same time, we will emphasize our support for 
peaceful uses of nuclear energy that do not increase the risk of 
weapons proliferation. The NPT Review Conference is not an end in 
itself, but a critical milestone in the effort to enhance 
nonproliferation efforts worldwide. Efforts this May will contribute to 
our ambitious nonproliferation agenda.
    In addition, President Obama has committed his administration to 
pursue the ratification of the Comprehensive Test Ban Treaty (CTBT). 
The CTBT is important to the nonproliferation effort because it 
restricts additional countries from developing, acquiring, and 
deploying nuclear weapons, and it hinders the ability of nuclear powers 
to develop new types of nuclear warheads. In the meantime, as a sign of 
our commitment to the CTBT regime, we will continue to maintain our 
unilateral moratorium on nuclear weapons-testing. Finally, we will also 
seek a Fissile Material Cutoff Treaty (FMCT) that would ban the 
production of fissile material for use in nuclear weapons.
    DOD fully supports these efforts. In particular, the fiscal year 
2011 budget request recognizes the nonproliferation value of these 
international agreements. It aims to fund technological improvements in 
instrumentation and software--such as air sample monitoring, analysis 
of seismic events, and improvements in infrasound detection--used for 
detection of treaty violations. These measures will ensure compliance 
with the NPT, CTBT, and FMCT.
    The administration also recognizes the importance of a variety of 
multilateral activities and mechanisms that help to prevent 
proliferation, such as the Proliferation Security Initiative (PSI). 
Since its establishment in 2003, PSI has grown to include 95 endorsing 
countries. PSI builds political support for counterproliferation and 
increases cooperation through multinational endorsement of the PSI 
statement of principles and participation in PSI exercises, 30 of which 
have been conducted since 2003. By endorsing the PSI, partners 
recognize the urgency of the WMD proliferation threat and commit 
themselves to taking action to stop shipments of proliferation concern 
on a voluntary basis, consistent with national legal authorities and 
relevant international law. The PSI also helps build the capacity of 
countries on the front lines of WMD transshipment to counter 
proliferation by hosting exercises in which countries share best 
practices, engage in scenario planning, and examine decision making 
processes. The U.S. Government has taken on an important new role this 
year by serving as the PSI ``Focal Point,'' providing support, 
improving information flow, and coordinating schedules of international 
activities among partners consistent with the President's desire to 
turn the PSI into a durable international institution.
    In addition, this administration is seeking Export Control Reform. 
Under the rubric of ``Higher Walls Around Fewer Items,'' our goal is to 
make exporting dangerous or sensitive items much more difficult, while 
at the same time lowering unnecessary barriers to profitable technology 
exports that pose no threat to our security. This broad-based 
interagency effort to review the current system and process of 
administering and enforcing U.S. export controls is close to making its 
final recommendations, and, with the cooperation of Congress, will then 
start the work of implementation.
    Despite these efforts, we recognize that this nonproliferation 
regime is under serious strain, in large part because of countries that 
choose to violate both the letter and the spirit of their commitments 
and because some countries choose to live outside this regime 
altogether. Responding to this challenge, this administration has gone 
on the diplomatic offensive to address nuclear proliferation threats, 
seeking to reclaim lost ground with allies and partners. This outreach 
is paying real dividends. Our demonstrated commitment to engagement and 
our efforts to find diplomatic solutions is helping us to put more 
pressure on the world's two greatest current proliferation threats, 
Iran and North Korea. In the case of North Korea, the successful 
implementation of United Nations Security Council Resolution 1874 has 
demonstrated the international community's resolve to stem the DPRK's 
ability to pursue nuclear, ballistic missile, and other WMD-related 
activities, and to prevent proliferation to and from North Korea. The 
United States has undertaken close coordination with partners on full 
implementation of the resolution, which provides for, among other 
things, enhanced provisions regarding inspection of suspect cargo.
                    reducing and eliminating threats
    The second element of the Department's approach involves engaging 
in active international partnerships to reduce and eliminate WMD 
dangers both at their source and in transit. Vulnerable nuclear, 
biological, and chemical materials that are secured or eliminated 
cannot be used for harmful purposes by terrorists or other hostile 
actors.
    As this committee is aware, the CTR Program has been working to 
reduce nuclear, biological, and chemical threats since its inception in 
1992, and has established a successful track record. Building on that 
success, we are transforming and expanding the CTR Program to meet 
today's threats. Over the years, Congress has expanded CTR's 
authorities and created new opportunities for the program to embark on 
these important national and international security priorities. This 
legislation enables the CTR program to address emerging WMD threats and 
to achieve long-standing WMD nonproliferation goals more effectively 
and comprehensively. Accordingly, new funding mechanisms provide the 
Department with additional resources to think and act beyond 
traditional projects and activities.
    Four broad principles--integration, responsiveness, stewardship, 
and cooperation--will guide our evolution and expansion. First, we are 
fully integrating CTR within broader whole-of-government counter-WMD 
approaches, as well as within productive and established bilateral and 
multilateral frameworks. Second, the CTR program is becoming both agile 
enough to accept targets of opportunity and flexible enough to utilize 
CTR in new regions and for new projects. Third, we are improving 
resource management and stewardship by better aligning expenditures 
with priorities, improving execution and accountability of funds, and 
developing sustainable, long-term solutions and capacity-building 
opportunities for our partner countries. Fourth, the CTR Program has 
renewed its focus on the cooperative components of our program, 
including establishing mutually beneficial projects with our partner 
countries and ensuring that the vision for any project includes common 
awareness of threats and solutions. Local vulnerabilities will be met 
with local solutions.
    With these principles as our guide, we will engage with countries 
and regions to achieve common goals and provide sustainable 
capabilities. Depending on the vulnerabilities, local capacity, and 
status of our relationship with a given country, we could employ any of 
the following four models as a template to expand CTR engagements and 
related projects and activities. First, the ``Traditional Model'' has 
been employed with individual former Soviet Union (FSU) states to 
establish an exceptionally high level of capability and national 
proficiency to deal with various materials and various levels of 
vulnerability. Next, a ``Tailored Model'' seeks to work bilaterally 
with countries to tailor CTR projects to identify and address specific 
vulnerabilities within the context of political and capability 
realities. A ``Regional Model'' seeks to develop baseline capabilities 
across a region to reduce the potential for future threats to emerge 
and to provide countries with the capacity to recognize those threats 
if they do emerge. Although key international partners will be 
important in each of the four models, the regional model is likely to 
rely most heavily on the participation and engagement of the 
international community. Our final model, known as ``Centers of 
Cooperation,'' will allow the Department to partner with key countries 
to increase information sharing and to develop best practices for 
appropriate CTR objectives. Instead of focusing our efforts on securing 
materials or building capacity at the source, our efforts will focus on 
developing long-term relationships that will have positive second- and 
third-order effects throughout the region.
    Although I have discussed our broad strategy and new approaches to 
meet our requirements, we cannot do all that the President and the 
world demand without additional resources. The CTR budget has held 
steadily around $430 million over the past 3 years. This year, however, 
we are taking real steps to exercise new legislative authorities to 
expand the CTR Program across the globe to reduce and eliminate 
emerging threats while simultaneously continuing our important work in 
Russia and FSU countries. This is why the President has requested a 
significant increase in the DOD CTR budget through fiscal year 2015. 
The overall fiscal year 2011 budget request for the DOD CTR Program is 
$522.5 million, a 23 percent increase over fiscal year 2010. Program 
enhancements in fiscal year 2011 over the fiscal year 2010 baseline 
include an additional $74.5 million to fund the Global Nuclear Lockdown 
Initiative and $56.9 million to expand the Biological Threat Reduction 
Program. I would now like to describe some examples of recent successes 
and plans to implement this new strategy in several areas of our 
nuclear, biological, and chemical threat reduction efforts, as well as 
our Proliferation Prevention Initiative (PPI) and Defense and Military 
Contacts (DMC) programs.
    As you are well aware, the CTR Program has been involved in 
reducing nuclear threats for a long time. It has been almost two 
decades since Congress passed the Soviet Nuclear Threat Reduction Act 
of 1991, the hallmark legislation that established the Nunn-Lugar 
Program. Within 6 months of its enactment, the United States and the 
Russian Federation signed the CTR Umbrella Agreement and began the 
arduous task of eliminating the enormous number of strategic offensive 
arms that had been built up by the Soviet Union. Although elimination 
work has largely been concluded in the other states of the former 
Soviet Union, it goes on to this day in Russia as ballistic missiles, 
launchers, and ballistic missile submarines continue to be dismantled. 
In addition, the Department continues to work closely with the 
Department of Energy and the Russian Federation Ministry of Defense 
(MOD) to ensure the appropriate infrastructure is in place to enable 
Russia to sustain over the long term the hundreds of millions of 
dollars worth of modernized physical protection systems that have been 
installed at nuclear weapons storage sites. Finally, the Department 
continues to assist Russia in transporting nuclear warheads from 
operational locations to dismantlement facilities or more secure, 
consolidated storage sites.
    Although we continue to focus on the Department's mission to reduce 
nuclear threats in Russia, we also are building upon our legacy of 
success to meet the President's broader nuclear nonproliferation 
agenda. The unprecedented gathering of 47 states to address these 
issues during the Nuclear Security Summit last week represents a 
critical step in the President's commitment to secure vulnerable 
nuclear materials worldwide by the end of 2013. The CTR Program is 
DOD's mechanism to support the President's initiative and the requested 
increase of $74.5 million will support expanded security cooperation 
with Russia and additional efforts with new partner countries. As 
required by the fiscal year 2008 legislation, the CTR Program will seek 
a determination from the Secretaries of Defense and State to conduct 
CTR projects and activities with new partner countries outside the FSU. 
Working with partner countries, DOE, and other Interagency partners, 
and consistent with our Centers of Cooperation engagement model, we 
plan to support a nuclear security Center of Excellence in China and a 
Nuclear Energy Center with a nuclear security component in India, as 
was announced at last week's Nuclear Security Summit. By using the 
centers, countries and agencies involved will be able to provide 
lessons learned and an exchange of best practices without requiring 
access to actual material or weapons sites.
    The Department is similarly expanding our biological threat 
reduction programs, and we are requesting a $56.9 million budget 
increase to meet our new global health security requirements in support 
of the President's National Strategy for Countering Biological Threats 
and 2010 QDR recommendations. In Afghanistan, we are working at the 
request of the acting Minister of Public Health to help consolidate an 
independent collection of diagnostic laboratories under a new National 
Public Health Laboratory in Kabul. The Department is also considering 
expanding the program into Sub-Saharan Africa, where we believe there 
are opportunities to implement regional approaches for human and animal 
disease detection, diagnosis, surveillance, and reporting.
    In addition to these expansion efforts, the BTRP continues to 
partner with FSU countries to enhance biosafety and security and to 
consolidate especially dangerous pathogens. In Georgia, we completed 
construction of a new Central Reference Laboratory (CRL) located in 
Tbilisi and also renovated other human regional diagnostic 
laboratories. In Kazakhstan, the CTR program is a member of a 
Kazakhstan Government cross-functional working group appointed to 
design a new Central Reference Laboratory. A successful CRL 
groundbreaking ceremony took place on March 30, 2010, and actual 
construction is expected to begin in a few months. Lastly, in Ukraine, 
the CTR Program is working with the Ministry of Health to consolidate 
all of Ukraine's human especially dangerous pathogens at a DOD-
renovated interim human central reference laboratory, and we are 
developing plans to renovate facilities for a permanent human central 
reference laboratory for reference diagnosis and safe secure research. 
We are also planning to construct a veterinary central reference lab to 
consolidate all of Ukraine's animal especially dangerous pathogens and 
provide for reference diagnosis and safe and secure research.
    CTR's chemical programs continue to assist Russia with safe, 
secure, and environmentally sound destruction of a portion of its 
chemical weapons nerve agent stockpile that is most vulnerable to theft 
or diversion. This year we also hope to complete elimination of on-site 
equipment at the former nerve-agent weapons production facility at 
Novocheboksarsk. Our efforts are intended to achieve U.S. chemical 
agent proliferation prevention goals while helping Russia comply with 
its Chemical Weapons Convention requirements. At Russia's request, and 
in our judgment to the mutual benefit of the people of the United 
States, we will continue some technical support for the Shchuch'ye 
Chemical Weapons Destruction Facility, which began eliminating chemical 
weapons in March 2009. The United States contributed more than $1 
billion to the construction of this facility, and our continued 
technical support will assist in maintaining the operational status of 
U.S.-furnished equipment, as well as equipment supplied by other donor 
countries, so that the elimination process continues expeditiously.
    In addition to CTR's programs to secure nuclear, biological, and 
chemical material at the source, the WMD Proliferation Prevention 
Initiative (PPI) is CTR's means to enhance our partners' abilities to 
detect and interdict WMD ``on the move.'' DOD has just completed a 
multiyear effort with Azerbaijan's State Border Guard Service-Coast 
Guard and elements of its Navy to enhance maritime detection, 
surveillance and interdiction capabilities on the Caspian Sea and we 
will continue to provide sustainment to that project for another 2 
years. In Ukraine, we are working with the State Border Guard Service 
to enhance maritime detection and interdiction capabilities on the 
Black Sea, as well as providing extensive assistance to land borders 
between the key ports of entry along the Moldovan border and in the 
Chernobyl Exclusion Zone.
    Although not an element of CTR, the Defense Threat Reduction Agency 
(DTRA)'s International Counterproliferation Program (ICP) complements 
the capital-intensive investments of the WMD-PPI program through its 
modest yet effective ``train and equip'' efforts. The ICP is unique in 
its legislative authority to partner explicitly with the Federal Bureau 
of Investigation and U.S. Customs in furtherance of deterring the 
proliferation of WMD across the FSU, the Baltic states, and in Eastern 
Europe. We are currently working with DTRA to determine how best to 
expand the program globally.
    The final element of the Department's threat reduction efforts is 
the Defense and Military Contacts (DMC) Program, which is currently 
transitioning to meet changed legislative guidelines and expanded 
authorities to support specific relationship building opportunities for 
CTR engagement in new geographic areas. Under this new approach, the 
CTR Policy Office will develop policy guidance in close cooperation and 
coordination with OSD's regional offices, AT&L/Treaties and Threat 
Reduction, and the Unified Combatant Commands. DTRA's CTR Program 
Office will administer the program in accordance with that guidance.
              detecting and responding to emerging threats
    The third element of the Department's approach involves improving 
our ability to detect and respond to emerging WMD dangers. Here the 
Department has a particular responsibility to our Nation, as well as to 
our allies and partners. For instance, instability resulting from the 
collapse of a nuclear-armed state would risk the global proliferation 
of nuclear material, weapons, or technology, posing a threat to our 
homeland and the homelands of our allies. We must be prepared to detect 
threats and defend ourselves against WMD dangers. This includes 
enhancements to interdiction and elimination capabilities as well as 
preparations to respond quickly to an attack should our preventive and 
deterrence efforts fail.
    Our Quadrennial Defense Review identifies preventing proliferation 
and countering weapons of mass destruction as one of the top priority 
missions for the Defense Department, and our fiscal year 2011 budget 
request reflects that commitment. This request will fully fund efforts 
to enhance SOCOM's ability to conduct counter-WMD operations by 
increasing funding by $60 million. It will also establish the standing 
Joint Task Force Elimination (JTF-E) Headquarters to plan, train and 
execute WMD elimination operations. The JTF-E works in conjunction with 
special operations forces to locate, characterize, secure, disable or 
destroy hostile WMD programs or capabilities in a non-permissive or 
semi-permissive environment. It will also provide nuclear disablement, 
exploitation, and intelligence capabilities with increased capacity to 
coordinate operations with Special Operations Forces. Currently the 
Joint Staff is developing several options for the command and control 
structure and force-sizing for the standing headquarters.
    The budget request includes $22 million to improve capabilities for 
national technical nuclear forensics technologies and the fielding of 
new capabilities, including funding for ground and air collection. 
Other key capability enhancements anticipated by this budget request 
include the modernization of WMD Civil Support Teams and CBRNE 
Consequence Management Response Forces to assist State and local 
governments in the event of a WMD attack, as well as enhanced technical 
reachback capabilities to ensure warfighters have real time access to 
information on WMD. We are also working to adapt our architectures, 
plans, and operations so that we can respond to WMD crises with greater 
speed and agility.
    Additionally, we must engage partner nations, allies, and the 
broader international community to improve our ability to detect and 
respond to such dangers and reduce the risk of nuclear terrorism. Here 
we are working to support a number of multilateral efforts, including 
the Global Initiative to Combat Nuclear Terrorism (GICNT), an 
international partnership of nearly 80 states and 4 observers that 
enhances individual, regional, and collective capabilities to combat 
nuclear terrorism through deterrence, prevention, detection, and 
response objectives. Through multilateral activities and exercises, 
partners share best practices and lessons learned. The United States 
and Russia, co-chairs to the GICNT, are currently taking tangible steps 
that will transform the GICNT into an action-oriented and 
institutionalized program.
                            closing remarks
    The world is changing and the Obama administration is bringing a 
full court press to assemble like-minded countries to meet our 
collective national and international security obligations to make the 
world safe from all weapons of mass destruction. These efforts continue 
to underscore the need and relevance of the Department's 
nonproliferation, threat reduction, and WMD detection and response 
tools. The Department takes its responsibilities seriously and we are 
building on our legacy of success to evolve and expand to meet today's 
challenges.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Senator Bill Nelson. Mr. Baker?

STATEMENT OF KENNETH E. BAKER, ACTING DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Mr. Baker. Mr. Chairman, I want to apologize up front; I 
caught a cold vacationing in Florida, but I assure you, sir, 
that it did not come from the great State of Florida. So, I 
apologize for the cold. [Laughter.]
    Senator LeMieux. Mr. Chairman, I already corrected the 
record; he caught it at the airport before he came to Florida. 
We know that he could not have gotten a cold in Florida. 
[Laughter.]
    Mr. Baker. Yes, sir, it was in the airport or, in Virginia, 
but it was not in Florida. But, I enjoyed my vacation, even 
with the cold, in Florida.
    Senator Bill Nelson. Mr. Baker, it's an oxymoron, ``cold/
Florida.''
    Senator LeMieux. Right.
    Mr. Baker. Yes, sir.
    Thank you, Mr. Chairman. I'm Ken Baker, Principal Assistant 
Deputy Administrator of the NNSA's Office of Defense Nuclear 
Nonproliferation, and the Acting Deputy Administrator.
    It's always a great pleasure to come before this committee 
to tell you about the NNSA's nuclear nonproliferation program. 
I'm prepared to make a formal written statement, Mr. Chairman, 
and, with your permission, I will submit that for the record. I 
do have about 3 or 4 minutes of oral testimony.
    Senator Bill Nelson. That was already entered, 12 minutes 
ago.
    Mr. Baker. Thank you, sir.
    The President is requesting $2.7 billion for fiscal year 
2011 for the nonproliferation program, an increase of 26 
percent over the last year's funding levels. We are trying to 
prevent nuclear weapons from falling in the hands of 
terrorists, to stem the further proliferation of nuclear 
weapons, materials, and technology expertise to build them.
    I'm not one to hype the threat. It's not easy to build a 
nuclear weapon. But, the consequences of any nuclear attack or 
nuclear incident would be so dire that it would greatly affect 
all of our American citizens. We must do everything we can, as 
quickly as possible, to ensure that this does not happen.
    The President has challenged the United States and 
international community to accelerate our materials security 
efforts over the next 4 years. The fiscal year 2011 budget 
request reflects the initial investment from this challenge. 
Our fundamental priority is the security of nuclear materials 
because if terrorists are unable to acquire nuclear materials, 
a weapon cannot be fashioned. In fact, the largest portion of 
our budget is aimed at making sure that vulnerable nuclear 
material is protected, removed, and disposed of. These first-
line-of-defense programs are the heart of the President's 4-
year effort and drive the increases requested for the Global 
Threat Reduction Initiative (GTRI) and Material Protection, 
Control, and Accounting (MPC&A) program.
    For example, the budget increase requested to allow the 
GTRI to remove an additional 530 kilograms of excess highly-
enriched uranium (HEU) from countries such as South Africa, 
Mexico, Serbia, Ukraine, and Belarus, as well as to convert 
seven additional reactors from HEU to low-enriched uranium 
(LEU).
    The Fissile Materials Disposition (FMD) program is also 
essential to our efforts toward nuclear disarmament and a world 
free of nuclear danger. This program works to dispose of 
surplus U.S. HEU and U.S. and Russian weapon-grade plutonium. 
Of the funds requested for the FMD program, 87 percent is for 
efforts to dispose of surplus U.S. weapon-grade plutonium. The 
largest part of this involves the construction of a Mixed-oxide 
(MOX) Fuel Fabrication Facility in Aiken, SC, which has been 
underway for over 2 years, and it is on schedule and within 
budget. FMD has also made progress in the disposition of Russia 
surplus weapon-grade plutonium. Just last week, at the Nuclear 
Security Summit, Secretary Clinton and Russian Minister of 
Foreign Affairs Lavrov signed a protocol amending the Plutonium 
Management Disposition Agreement. This agreement commits both 
countries to dispose of no less than 34 metric tons of surplus 
weapon-grade plutonium, which, combined, represents enough 
material for approximately 17,000 nuclear weapons.
    Our security work in Russia has been going on for many 
years, and the results are tangible. Thousands of nuclear 
warheads and hundreds of tons of weapon-grade plutonium are 
better secured today, due to our efforts. But, we have 
additional work to do. The job is not complete. We have 
identified some new areas that need to be addressed before we 
can conclude our efforts in Russia.
    We're concerned about two things. First, the 
sustainability. It would do us little good to have spent years 
working to improve security in Russia if we fail to help our 
partners create a sustainability program in nuclear security. 
The second thing we must do is to look beyond Russia to create 
multiple sustainability levels of defense, such as providing 
radiation detection monitors and related response training over 
the world, and securing seaports away from our borders through 
our Second Line of Defense program. No security program is 
perfect, and any system can break down due to human error, 
equipment malfunction, or overwhelming attack. Multiple layers 
of defense help mitigate these issues.
    Our elimination of weapon-grade plutonium in the three 
reactors that were remaining in Russia, I can say today, sir, 
is complete. Two reactors that make weapon-grade plutonium were 
shut down 1 year ago, and the last one was shut down last week. 
So, we have completed this program of shutting down all weapon-
grade plutonium reactors in Russia.
    This budget request will allow us to continue to provide 
vital support to the International Atomic Energy Agency (IAEA) 
and the Nuclear Suppliers Group. We want to continue to 
revitalize the U.S. nuclear safeguards technology and human 
base, which has suffered attrition over the years, through our 
Next Generation Safeguards Initiative.
    Last, we want to continue using the investment in world-
class capabilities of DOE's nuclear weapons labs to conduct 
research and development of new technology capabilities to 
support the Nation's arms control and nonproliferation efforts.
    In summary, Mr. Chairman, I thank this committee for your 
continued support and longstanding and newly ambitious efforts. 
We are equipped to play a critical role in preventing 
terrorists, rogue states, and proliferators from acquiring a 
nuclear component.
    Again, I appreciate this opportunity, and I'm ready to take 
your questions, sir.
    [The prepared statement of Mr. Baker follows:]
                 Prepared Statement by Kenneth E. Baker
    Thank you, Mr. Chairman, and Committee Members, for the opportunity 
to present the Department of Energy's National Nuclear Security 
Administration (NNSA) fiscal year 2011 President's budget request for 
the Office of Defense Nuclear Nonproliferation.
    The Defense Nuclear Nonproliferation mission is both critical and 
multi-faceted: to provide policy and technical leadership to limit or 
prevent the spread of Weapons of Mass Destruction (WMD)-related 
materials, technology, and expertise; to advance technologies to detect 
WMD-related proliferation worldwide; and to eliminate, reduce, or 
secure surplus nuclear weapons-related materials. In short, we detect, 
deter, secure, or dispose of dangerous nuclear and radiological 
materials worldwide.
    The President's fiscal year 2011 budget request for the Defense 
Nuclear Nonproliferation portfolio is $2.69 billion, an increase of 
25.8 percent from fiscal year 2010. As NNSA Administrator D'Agostino 
has stated, this budget request is a ``direct and tangible display of 
the President's commitment to this mission, and a demonstration of the 
critical role NNSA plays in implementing the President's unprecedented 
nuclear security agenda.'' NNSA's Defense Nuclear Nonproliferation 
program is a key component of the President's nonproliferation vision, 
and we are working--together with our more than 130 international 
partners--to achieve these global security goals.
    This comprehensive nonproliferation, nuclear security, and arms 
control agenda was outlined in the President's April 2009 speech in 
Prague, Czech Republic and consists of several key objectives, 
including:

        <bullet> Implementing a new international effort to secure all 
        vulnerable nuclear materials worldwide in 4 years;
        <bullet> Taking concrete actions toward a world without nuclear 
        weapons;
        <bullet> Breaking up nuclear black markets and halting nuclear 
        smuggling; and
        <bullet> Strengthening the Nuclear Nonproliferation Treaty 
        (NPT).

    The fiscal year 2011 Defense Nuclear Nonproliferation Budget 
Request can be summarized into these four major categories of effort. 
This fiscal year 2011 request funds efforts to support the President's 
nuclear security vision, as an early step in meeting this multi-year 
initiative.
    Additionally, within these four categories, we are making solid 
contributions in cross-cutting administration and NNSA priorities, 
including strengthening the Nation's Science and Technology (S&T) base, 
reinvigorating America's scientific and technical human capital, and 
upholding our strong commitment to effective project management.
    Specifically, our $2.69 billion fiscal year 2011 request includes:

        <bullet> More than $1 billion for the Fissile Materials 
        Disposition (FMD) program to dispose of surplus plutonium and 
        highly enriched uranium by constructing a MOX Fuel Fabrication 
        Facility and a Waste Solidification Building, developing a 
        capability to disassemble excess nuclear weapon pits, and 
        supporting Russian plutonium disposition activities. The fiscal 
        year 2011 request aligns management and funding 
        responsibilities for the interrelated surplus plutonium 
        disposition activities, in support of U.S. nonproliferation and 
        arms control objectives, under a single appropriation. The 
        fiscal year 2011 Russian Fissile Materials Disposition Request 
        seeks $100 million of a total $400 million U.S. commitment to 
        support plutonium disposition in Russia. On April 13, 2010, 
        Secretary of State Clinton and Russian Minister of Foreign 
        Affairs Lavrov signed the Protocol to amend the 2000 Plutonium 
        Management and Disposition Agreement (PMDA).
        <bullet> Over $590 million for the International Nuclear 
        Materials Protection and Cooperation (INMP&C) program (an 
        increase of $18 million) for additional Material Protection 
        Control & Accounting (MPC&A) upgrades, expansion of MPC&A 
        cooperation with countries outside of Russia and the former 
        Soviet Union, and additional deployment of radiation detection 
        systems to combat illicit trafficking of nuclear and other 
        radioactive materials under the Second Line of Defense program;
        <bullet> Nearly $560 million for the Global Threat Reduction 
        Initiative (GTRI) (an increase of 68 percent) to remove and 
        secure high-priority vulnerable nuclear material around the 
        world in 4 years, accelerate additional conversions of highly 
        enriched uranium (HEU) fueled research reactors to the use of 
        low enriched uranium (LEU) fuel, and to provide a comprehensive 
        approach to permanently deny terrorists access to nuclear and 
        radiological material at civilian sites worldwide;
        <bullet> Over $350 million for the Nonproliferation and 
        Verification Research & Development (R&D) program (an 10 
        percent increase) to provide the key technical support for the 
        President's arms control and nonproliferation agenda; and
        <bullet> Nearly $156 million for the Nonproliferation and 
        International Security (NIS) program (a decrease of almost 17 
        percent, primarily the result of a reduction in activities to 
        support verification of disablement of the Democratic People's 
        Republic of Korea nuclear program) to safeguard nuclear 
        material; control the spread of WMD technologies, equipment, 
        and expertise; and verify nuclear reductions and compliance 
        with international regimes, treaties, and agreements.
         securing nuclear weapons and materials from terrorists
    The President's April 5, 2009 speech in Prague presented a vision 
to address the international nuclear threat. His call to secure all 
vulnerable nuclear materials around the world within 4 years is a 
cornerstone of this strategy. Within the U.S. Government, the Office of 
Defense Nuclear Nonproliferation will perform a significant portion of 
this crucial nuclear security work. Implementing this nuclear security 
initiative will require expanding and accelerating our security 
cooperation with Russia and other key countries, pursuing new 
partnerships to secure nuclear materials, and strengthening nuclear 
security standards, practices, and international safeguards.
    Our fiscal year 2011 budget request funds early efforts to support 
the administration's nuclear security vision, as a first step in 
meeting this multi-year initiative. Two Defense Nuclear 
Nonproliferation programs are providing sizeable contributions to this 
goal: the Global Threat Reduction Initiative and the International 
Nuclear Materials Protection and Cooperation programs.
    The Global Threat Reduction Initiative (GTRI) mission is to reduce 
and protect vulnerable nuclear and radiological materials at civilian 
sites worldwide. To execute this mission, GTRI: 1) Converts research 
reactors and isotope production facilities from the use of highly 
enriched uranium (HEU) to low enriched uranium (LEU); 2) Removes and 
disposes of excess nuclear and radiological materials; and 3) Protects 
high-priority nuclear and radiological materials from theft and 
sabotage. These three key subprograms of GTRI--Convert, Remove, and 
Protect--provide a comprehensive approach to achieving its mission and 
denying terrorists access to nuclear and radiological materials.
    The 68 percent GTRI increase in the President's fiscal year 2011 
budget request accelerates these threat reduction activities to secure 
all vulnerable nuclear materials in 4 years. Among other priorities, 
the fiscal year 2011 budget request allows GTRI to initiate efforts to 
remove over 1,650 kilograms of excess HEU and convert an additional 7 
research reactors to the use of low enriched uranium fuel. 
Additionally, as part of its mission to reduce the use of HEU in 
civilian applications globally, GTRI will address the anticipated 
supply shortage of the medical isotope Molybdenum-99 (Mo-99) by 
implementing projects demonstrating the viability of non-HEU based 
technologies for large-scale Mo-99 production.
    The International Nuclear Materials Protection and Cooperation 
(INMP&C) program works in the former Soviet Union and other countries 
of concern to secure nuclear weapons and weapons-usable nuclear 
materials. The Material Protection Control and Accounting (MPC&A) 
program achieves this mission by providing security upgrades at nuclear 
sites, consolidating these materials at fewer sites that are more 
secure, and supporting the development of sustainable MPC&A systems. 
Beyond security upgrades, the MPC&A program also works with partner 
countries to develop regulations and procedures concerning the material 
control, accounting, and physical protection of nuclear materials, 
including in the areas of training, education, transportation, nuclear 
security culture, protective forces, material measurements, nuclear 
material accounting and inspections. In Russia, INMP&C partners include 
the Russian Ministry of Defense (MOD), the State Corporation for Atomic 
Energy (Rosatom), and Rostekhnadzor, the Russian nuclear regulatory 
agency.
    As agreed under the Bratislava Nuclear Security Initiative of 2005, 
major progress was made on security upgrades in Russia, including 
completion of all MOD warhead storage sites by the end of 2008. As a 
result of this success, some important upgrade work was added to 
MPC&A's mission after February 2005, and that work is currently being 
accelerated to support the President's 4 year nuclear security goal. 
Although this particular program is one of our more mature threat 
reduction efforts and has made considerable progress in Russia and 
elsewhere, work remains to be done to secure other vulnerable nuclear 
materials around the world within 4 years.
    The fiscal year 2011 INMP&C budget request allows this program to 
continue additional nuclear security upgrades at the 19 (out of 214) 
remaining Russian buildings within the program's scope where upgrades 
have not been completed, and to complete five of these 19 buildings in 
fiscal year 2011. It also provides for comprehensive sustainability 
efforts to continue transitioning maintenance of completed upgrades to 
Russia. Under the fiscal year 2011 budget request, the INMP&C program 
also would expand nuclear security cooperation to new partner countries 
outside of Russia and states of the former Soviet Union, in order to 
meet the administration's global nuclear security agenda.
                 toward a world without nuclear weapons
    The President has acknowledged that the goal of a world without 
nuclear weapons will not be reached quickly, but he stated that America 
will take concrete steps toward this goal. Our Nonproliferation and 
International Security (NIS) program is engaged actively in these 
efforts, including the support we provided for negotiating the new 
START treaty with the Russian Federation and supporting efforts towards 
ratification of the Comprehensive Nuclear Test Ban Treaty (CTBT). In 
fiscal year 2011, NIS will build upon these current efforts by 
continuing to provide policy and technical support for nonproliferation 
and arms control treaties and agreements that strengthen the 
nonproliferation regime and promote transparent WMD reductions. In 
addition, NIS also will continue to develop and deploy transparency 
measures to ensure verifiable nuclear reductions and compliance with 
nonproliferation and arms control agreements. This includes work that 
benefits from support provided by the Nonproliferation and Verification 
Research and Development (R&D) program, to develop technologies that 
detect potential clandestine weapons programs or illicit diversions and 
provide options for the dismantlement of nuclear equipment, weapons, 
and components, and develop new monitoring tools to ensure that the 
obligations of foreign governments are being met. Particular emphasis 
will be placed on the development of scientifically sound verification 
approaches that meet the President's goal of an effectively verifiable 
Fissile Material Cut-Off Treaty (FMCT) while protecting critical 
national security equities.
    Investments in NNSA's R&D program provide the core U.S. capability 
for advances in both U.S. and international capabilities to monitor 
arms control and nuclear-related treaty obligations, such as those 
conferred by the NPT, the FMCT, and the CTBT. The R&D program 
contribution includes research, development, production, and delivery 
of space- and ground-based sensors to detect nuclear detonations. 
Additionally, this program leads the nonproliferation community's R&D 
effort to advance next generation detection capabilities to detect 
foreign nuclear materials and weapons production facilities and 
processes. In keeping with the President's commitment for verifiable 
treaties, in fiscal year 2011 the R&D program will include test and 
evaluation activities to demonstrate new U.S. treaty monitoring 
technologies and capabilities.
    Our Fissile Material Disposition (FMD) program is also a crucial 
component of the Defense Nuclear Nonproliferation contribution to the 
administration's nonproliferation and arms control agenda, through its 
mission to eliminate surplus U.S. highly enriched uranium and U.S. and 
Russian surplus weapon-grade plutonium. Of the funds requested for FMD, 
87 percent is for efforts to irreversibly dispose of surplus U.S. 
weapon-grade plutonium. The largest part of this involves the 
construction of the Mixed-Oxide Fuel Fabrication Facility (MFFF) in 
Aiken, SC, which has been underway for over 2 years and is on schedule 
and within budget. The MFFF is scheduled to start operations to produce 
MOX fuel in 2016. Overall, the MOX project is 42 percent complete with 
two significant buildings (the 57,000 square foot administration 
nuilding and the 38,000 square foot secured warehouse) completed in 
2009, for a total of 10 out of 17 auxiliary buildings completed to 
date. The Waste Solidification Building (WSB) is scheduled to begin 
operations in 2013 to support MFFF cold start-up testing. Overall, the 
WSB project is 34 percent complete.
    In addition to constructing the MOX Facility and the Waste 
Solidification Building, the Department of Energy is exploring 
combining NNSA's Pit Disassembly and Conversion Project and the Office 
of Environmental Management's Plutonium Preparation Project into a 
single project, to be managed by NNSA and located in the existing K-
Area Facility at the Savannah River Site. As a result, the President's 
fiscal year 2011 Budget Request supports realigning funding and 
management of interrelated surplus U.S. plutonium disposition 
activities under a single appropriation within the Defense Nuclear 
Nonproliferation appropriation. Complying with the Department's project 
management order, DOE Order 413, FMD will develop a conceptual design 
report, along with the requisite project support documentation to move 
toward a Critical Decision 1 (approval of alternative selection and 
cost range) determination. This preparatory work prior to alternative 
selection will be completed approximately 12-18 months from the start 
of such work.
    In addition to progress on U.S. fissile materials disposition, FMD 
has also made much progress on disposition of Russian surplus weapon-
grade plutonium. In 2009, the United States and Russia completed 
negotiations on a Protocol to amend the 2000 Plutonium Management and 
Disposition Agreement (PMDA), and on April 13, 2010 the Protocol was 
signed by Secretary of State Clinton and Russian Minister of Foreign 
Affairs Lavrov. Under the PMDA, each country commits to dispose of no 
less than 34 metric tons each of surplus weapon-grade plutonium--enough 
material for approximately 17,000 nuclear weapons. The amended PMDA 
reflects both Russia's revised plan for disposing of its 34 metric tons 
of surplus weapon-grade plutonium using fast reactors under certain 
nonproliferation conditions and Russia's commitment to implement its 
program independent of any assistance beyond the $400 million U.S. 
financial contribution. The Protocol calls for both countries to begin 
disposing of their surplus plutonium in the 2018 timeframe. The fiscal 
year 2011 Russian Fissile Materials Disposition Request seeks $100 
million of the total $400 million commitment to support plutonium 
disposition in Russia, with the balance of the more than $2 billion in 
estimated remaining costs to be borne by Russia.
        breaking up black markets and halting nuclear smuggling
    As a complement to our facility-based physical security efforts 
that serve as a first line of defense, NNSA executes a number of 
programs that provide an additional layer of defense by detecting and 
preventing illicit transfers of nuclear-related materials, equipment, 
and technology. These programs help implement the President's Prague 
speech call to build on efforts to break up nuclear black markets and 
detect and intercept dangerous materials in transit.
    Within the Office of International Nuclear Materials Protection and 
Cooperation, the Second Line of Defense (SLD) Core program cooperates 
with foreign partners to install radiation detection equipment at 
borders, airports, and strategic ports in Russia, other former Soviet 
Union states, Eastern Europe, and other key countries, and to provide 
related training and support. The Core program is also teaming with 
foreign law enforcement agencies to provide equipment, develop 
training, conduct exercises, and exchange best practices in mobile 
detection. The SLD Megaports Initiative likewise cooperates 
internationally to deploy radiation detection equipment and provide 
related training to key, high volume and/or strategically located 
ports. The fiscal year 2011 budget request provides for SLD 
installations at an additional 55 sites in 19 foreign countries, and 
for the completion of Megaports installations and activities at 4 
additional foreign seaports.
    The Office of Nonproliferation and International Security (NIS) 
supports efforts to halt illicit trafficking by strengthening global 
capacity to prevent the theft, diversion, and spread of nuclear 
materials, technologies, and expertise. Specifically, NIS is training 
international partners in export control, licensing, enforcement, 
interdiction, and physical protection of nuclear materials. These 
programs include the International Nonproliferation Export Control 
Program (INECP), which works with foreign country partners as well as 
domestic USG export enforcement agencies to strengthen national export 
control systems, practices, and awareness. Additionally, the 
Cooperative Border Security Program (CBSP), focusing on building 
overarching border security system capacity, works with foreign country 
partners to create training programs and shape analytical methods and 
tools so that states can deploy sustainable capabilities to protect 
their borders. NIS also provides specialized support to domestic 
licensing, enforcement, and interdiction agencies through such efforts 
as the Interdiction Technical Analysis Group (ITAG). ITAG supports 
Department of State-led interagency interdiction working groups that 
review potential proliferation activity and transactions in the 
nuclear, missile, and chemical and biological fields, by providing 
technical analysis of proliferation-relevant commodities and 
technologies through reachback to the national laboratories. The fiscal 
year 2011 budget request supports the continuation of these efforts. 
Finally, the fiscal year 2011 budget request increase for the 
Nonproliferation and Verification R&D program will advance development, 
testing, and evaluation of next generation capabilities to detect the 
illicit diversion of special nuclear materials, both internal and 
external to nuclear facilities.
           strengthening the nuclear nonproliferation treaty
    President Obama has also called upon America and its partners to 
strengthen the NPT as a basis for cooperation. The Office of 
Nonproliferation and International Security (NIS) will continue efforts 
to strengthen nonproliferation regimes and multilateral organizations, 
by providing international policy expertise and technical responses to 
address issues concerning the control of proliferation-sensitive items, 
in order to help shape
    nonproliferation policy initiatives both domestically and 
multilaterally. NIS will also help develop a new international civil 
nuclear framework to further the President's energy security and 
environmental goals without jeopardizing national security. NIS will 
work within existing regimes and arrangements, including via peaceful 
nuclear cooperation agreements and the national NPT review process, 
among others, to help develop and advance this new framework.
    In fiscal year 2011, NIS also will work to strengthen and support 
the International Atomic Energy Agency (IAEA)--and the international 
safeguards system it administers--to confront the challenges posed by 
nuclear proliferation and global nuclear energy expansion. NIS will 
continue to implement the Next Generation Safeguards Initiative (NGSI), 
which is working to revitalize the U.S. technical and human capital 
base supporting IAEA safeguards, and to develop the tools, approaches, 
and authorities needed by the IAEA to fulfill its mandate far into the 
future. This includes developing and implementing new safeguards 
concepts and approaches, and working with partners to develop nuclear 
infrastructure in countries pursuing nuclear energy programs that 
emphasizes safeguards, security, and nonproliferation obligations. NIS 
also will implement IAEA safeguards, including the Additional Protocol, 
at DOE facilities and continue to engage industry and the IAEA to 
incorporate safeguards requirements early-on in the facility design and 
construction phases. Additionally, NIS will continue bilateral 
safeguards partnerships to develop new safeguards approaches, help 
states implement their NPT safeguards obligations, and facilitate the 
nuclear safeguards and security infrastructures required for new 
countries to access the peaceful benefits of clean nuclear energy.
                        cross-cutting priorities
    Integrated across these four broad categories of effort, the 
Defense Nuclear Nonproliferation program is also implementing over-
arching administration and NNSA priorities, including:

    <bullet>  Strengthening the Nation's Science and Technology (S&T) 
base;
    <bullet>  Reinvigorating America's scientific and technical human 
capital; and
    <bullet>  Upholding our strong commitment to effective project 
management.

    Increases in our fiscal year 2011 budget request directly support 
Presidential and NNSA priorities to strengthen the Nation's Science and 
Technology base. The increase in the Nonproliferation and Verification 
R&D budget by $34 million, or 10 percent, for example, will expand the 
program's basic and applied research for nonproliferation and national 
security applications and fund new technical capabilities to meet the 
President's nonproliferation and arms control treaty monitoring 
objectives. The R&D program remains the Nation's largest long-term 
basic R&D program in this area and supports not only NNSA customers but 
also the Departments of Defense, State, Homeland Security, and the 
Intelligence Community.
    As Administrator D'Agostino noted in his testimony last week, NNSA 
is working to develop and retain the next generation of scientists, 
engineers, and technical experts required to meet our critical mission. 
For example, through our Next Generation Safeguards Initiative, we will 
significantly develop human capital within the DOE National 
Laboratories by supporting over 100 Next Generation Safeguards 
Initiative summer interns at the Laboratories, funding postdoctoral 
fellowships in international safeguards, and sponsoring six safeguards 
courses. In fiscal year 2011 and beyond, our R&D program will continue 
developing the next generation of nuclear engineers and scientific 
researchers through a $15 million per year, university-based program--
the 10-year Integrated University Program. This program is coordinated 
with component efforts by the DOE Office of Nuclear Energy and the 
Nuclear Regulatory Commission.
    To further develop scientific and technical human capital, the 
Office of Fissile Materials Disposition has co-sponsored (with DOE's 
Office of Environmental Management) several Regional Nuclear Suppliers 
Outreach events for American suppliers interested in providing services 
and products in the nuclear sector. At these events, U.S. companies are 
given insight into current and future markets for products and 
services. Additionally, they learn the requirements of the Nuclear 
Quality Assurance program applicable not only to DOE but to the 
commercial nuclear industry. This forum helps ensure that NNSA has an 
adequate number of qualified commercial suppliers, and helps more 
American companies become qualified to supply similar products and 
services to the commercial nuclear power industry. Currently, more than 
1,800 people are employed by the project at Savannah River Site with 
more than 4,000 working on MOX-related activities in the United States.
    As Administrator D'Agostino also noted last week, with the 
increased resources you provide us comes our increased responsibility 
to be effective stewards of taxpayers' money. The Defense Nuclear 
Nonproliferation program takes this responsibility seriously, and we 
implement the highest standards of project management practices to make 
our programs more efficient and more cost-effective. Our MOX Fuel 
Fabrication Facility effort is a good example. Despite their size and 
complexity, both the Mixed-Oxide Fuel Fabrication Facility (MFFF) and 
Waste Solidification Building (WSB) projects are progressing on 
schedule and within budget in accordance with their approved cost and 
schedule baselines. Additionally, the MFFF project recently celebrated 
a milestone of 3 million workhours without a lost day of work due to 
injury.
    As another effective project management element, we are increasing 
our cost-sharing efforts, not just as a matter of fiscal responsibility 
to the American public but as a force multiplier to address high-
priority international nuclear security and nonproliferation 
objectives. Our cost-sharing partnerships include both monetary 
transactions and in-kind contributions, and additional Defense Nuclear 
Nonproliferation programs are incorporating cost-sharing as part of 
their revised program model and project management practices. With 
respect to monetary donations, to date, Defense Nuclear 
Nonproliferation has received approximately $60 million from seven 
overseas partners to execute our internationally-recognized 
nonproliferation work. However, our programs also utilize in-kind cost-
sharing agreements. For example, under the Second Line of Defense Core 
Program, DOE/NNSA and Russia's Federal Customs Service have agreed to 
equip all of Russia's approximately 350 border crossings by 2011, and 
the costs for this effort will be split approximately evenly between 
DOE/NNSA and the Russian Federal Customs Service. The Second Line of 
Defense/Megaports Initiative has 12 cost-sharing arrangements in place 
for portal monitoring equipment installation and training. Under our 
Fissile Materials Disposition program, although the United States has 
committed to contribute $400 million in support of plutonium 
disposition efforts in Russia, the Russia Federation bears 
responsibility for the approximately $2 billion remaining required to 
implement its plutonium disposition commitment. Additionally, over the 
past 10 years, the Russian Federation has provided over $30 million 
toward the cost of conducting research and development on the Gas 
Turbine-Modular Helium Reactor (GT-MHR) for plutonium disposition in 
Russia, and intends to continue to support that effort on a 50/50 cost 
sharing basis. As a final example, the Russian Government has committed 
to provide $3 million to help remove the HEU spent fuel from the Vinca 
Institute in Serbia as part GTRI's fuel removal work
    Since 1994, DOE/NNSA has spent approximately $2 billion on Russian 
nuclear security work. Sustainability is the key to ensuring that these 
national security investments continue to be utilized to their full 
potential. We continue to stress to our Russian partners the importance 
of sustaining these systems, including the eventual need for Russia to 
take the full financial responsibility for sustaining completed nuclear 
security enhancements. To this end, the INMPC&A program recently 
reached agreement with Russia's Rosatom on a Joint Sustainability and 
Transition Plan. This plan identifies specific timelines for each site 
to take over financial responsibility for sustainability related 
activities in Organizational Planning, Human Resource Development, 
Regulatory Development, Operational Cost Analysis, Maintenance, 
Performance Testing, and Configuration Management. We believe that such 
sustainability efforts, combined with the other project management 
practices referenced, will return the maximum benefit to the American 
public for their investment in global security and America's national 
security.
                               conclusion
    In conclusion, I am proud of NNSA's nonproliferation 
accomplishments to date. The fiscal year 2011 budget request for 
Defense Nuclear Nonproliferation builds upon a strong foundation of 
past achievements that will help us reap genuine security dividends 
from our nonproliferation efforts in the future. We have a narrow 
window of opportunity here and now, making use of fleeting global 
momentum on nonproliferation already underway, to renew our commitment 
to nonproliferation and nuclear security. Although the challenges to 
nuclear security are many, the potential benefit from expanded and 
accelerated international cooperation to address these challenges is 
enormous. Together with our interagency and international partners, 
through concerted action, and the continued support of Congress and the 
American people, we can reach this shared goal. I thank the chairman 
and the committee for your time.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Bill Nelson. Thank you, gentlemen.
    We'll turn to Senator LeMieux first.
    Senator LeMieux. Thank you for your testimony. I want to 
say, as a prefacatory remark, that I'm supportive of your 
efforts, and the administration's efforts, to reduce the amount 
of weapon-grade nuclear material in the world, to lock those 
materials down so that they don't get in the hands of rogue 
states. I also support the President's efforts--I know that he 
has come forward on trying--to get rid of tactical nuclear 
weapons because of the dangers that they could get into the 
hands of rogue states.
    I want to focus specifically on a rogue state that we know, 
or at least we believe, is trying to arm itself with a nuclear 
weapon and that's Iran. We've heard testimony, in front of the 
full committee, that Iran may be able to produce a nuclear 
weapon in a very short time period, certainly less than 5 
years, maybe from 1 to 3 years. We heard testimony, yesterday, 
that Iran may be able to develop an intercontinental ballistic 
missile within 5 years.
    I want to focus if we can, to start off with on Iran, on 
Tehran's efforts. We have, of course, the knowledge that we 
gained months ago on the new facility that they have in Qom. It 
seems that despite the administration's overtures to have a 
diplomatic solution to this, that Tehran has snubbed its nose 
at us and is proceeding on the path of developing a nuclear 
weapon.
    How concerned are you about Iran's acquisition of enough 
weapon-grade fissile material to make a nuclear weapon?
    Mr. Secretary?
    Dr. Nacht. It is a serious concern of DOD and the 
administration. It's a top priority of this administration to 
prevent Iran from developing or acquiring a nuclear weapon. 
Very recently, Under Secretary Flournoy and the Vice Chairman 
of the Joint Chiefs, General Cartwright, testified just last 
week, in fact, in front of the full Senate Armed Services 
Committee, and cited the two central objectives of our policy, 
working to prevent Iran from acquiring these weapons and 
countering Iran's destabilizing activities and support for 
extremists in the Middle East.
    Our primary focus continues to be enhancing regional 
security cooperation with Middle Eastern partners. We're 
working actively to counter destabilizing Iranian activities by 
strengthening the capacities of vulnerable states in the 
region. Through prudent military planning, we continue to 
refine options to protect U.S. and partner interests from 
Iranian aggression, to deter Iran's destabilizing behavior, and 
to prepare for contingencies, all while reducing the risks of 
miscalculation.
    There is currently legislation in Congress that has passed 
the House and Senate overwhelmingly and which would levy new 
unilateral sanctions on Iran's importation of refined petroleum 
and also take away much of the President's flexibility to grant 
waivers. The Department of State and the White House are 
concerned because the extraterritoriality provision in the bill 
could undermine our attempts to levy multilateral sanctions. 
This is a highly sensitive issue, but we hope to move forward 
with it.
    It's a combined effort at trying to limit Iranian 
capabilities and build support in the region to dissuade the 
Iranians from proceeding down this path. We have intensive 
discussions going on in New York now with the United Nations 
(U.N.) to craft language of a U.N. Security Council resolution 
which will provide meaningful sanctions against the Iranian 
Government.
    Senator LeMieux. I think we all would like to see 
meaningful sanctions. Up until this time, that has not been 
achieved. We know that the President, from what we read, is 
working on it with China and Russia, and we hope that that 
comes about. But, we also know that the last time that we 
worked to bring the world community together to stop a rogue 
country from gaining a nuclear weapon, it didn't work. That was 
with North Korea. If we continue on this path, it may happen 
again. Hope springs eternal that sanctions will work and that 
we will change Ahmadinejad's mind, which seems unlikely to me. 
A moment ago, you talked about military planning and 
contingencies. Can you elaborate on that?
    Dr. Nacht. I'll just state what Secretary Gates stated on 
Monday of this week, that he had written a memo that presented 
a number of questions and proposals intended to contribute to 
an orderly and timely decisionmaking process with respect to 
the Iranian nuclear weapons program. In support of the 
administration's pivot to a pressure track on Iran earlier this 
year, this memo identified next steps in our defense planning 
process, where further interagency discussion and policy 
decisions would be needed in the months and weeks ahead. That's 
all I'm able to say at this time about planning for 
contingencies with respect to Iran.
    Senator LeMieux. Mr. Baker, do you have anything you'd like 
to add on this?
    Mr. Baker. We're just as concerned as you are, sir. What 
we're doing is looking at all the procurements that may be 
going into Iran, and trying to stop those procurements. They 
may be dual-use equipment used for nuclear capabilities, we're 
working that very hard with industry. We know, in an 
unclassified setting, that there are many procurement lines. 
We're educating industry on the export control rules, on the 
licensing rules, and we're trying to cut off these networks 
going into Iran to help Iran build a nuclear weapon. We were 
and are concerned. We're doing everything in DOE, from an 
export-control standpoint and with industry, to try to stop any 
procurement that may be dual-use-type equipment.
    Senator LeMieux. I can't stress enough how much this 
worries me. I hope, and I would assume, that this is a topic of 
daily conversation in your lives. I can't think of any other 
priority that would come ahead of this topic. This is a country 
that its leader is openly hostile to the United States of 
America, openly hostile to our allies in Israel, and says he 
wants to wipe Israel off the face of the map.
    Mr. Chairman, I'd like to have entered into the record this 
Washington Times article from today, which was a front-page 
story, if I may?
    Senator Bill Nelson. Without objection.
    Senator LeMieux. It is about Iran boosting its Qods shock 
troops in Venezuela.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator LeMieux. At our last subcommittee hearing of this 
committee, we discussed, in detail--and I would hope that it's 
something that you all have focused on, and, if you haven't 
focused on, you will--the gathering storm and alliances between 
Caracas and Tehran. We know that President Ahmadinejad has 
visited President Hugo Chavez several times, that there is a 
direct flight from Caracas to Tehran, with some sort of extra-
airport-type arrangement, where they don't go through customs, 
and people can get off the plane and get on the plane without 
knowing who they are. We know that Hezbollah and Hamas are set 
up in Latin America. We know that our friends in Colombia are 
dealing with Venezuela, allowing narcotraffickers to fly over 
their airspace.
    Senator Nelson and I have the great pleasure to have so 
many military installations in Florida. I had the opportunity 
to visit one in Key West this weekend, which is our Joint 
Interagency Task Force that does phenomenal work interdicting 
these narcoterrorists. If you look at the flight paths of these 
trafficking planes, they're all flying over Venezuela. We know 
that Venezuela is cooperating with the Revolutionary Armed 
Forces of Colombia. A Spanish judge has recently come out and 
said that, in a formal proceeding, Venezuela was working with 
the Basque Homeland and Freedom (ETA) to assassinate President 
Uribe and his predecessor. Now, we find out that Iran is going 
to put shock troops in Venezuela.
    I want you all to focus on this topic because I'm worried 
about an Iranian attack from the south, not just from the east. 
I hope that this is something that you've at least focused on 
or talked about. I'd be happy to hear any response you'd like 
to make to that.
    Mr. Secretary?
    Dr. Nacht. I would just say that the issues you've raised 
are taken most seriously at the highest levels of DOD and our 
Government. DOD does not comment publicly on any military 
planning in which we are engaged. Any specific questions you 
might have on Venezuela we can take for the record and we'll 
get back to you with specific responses.
    Senator LeMieux. Mr. Baker?
    Mr. Baker. Likewise, sir. Again, we're trying to work all 
the technology, and, like I say, all the procurement networks, 
which we know pretty well in DOE, and educating industry to 
stop anything going into Iran. We're working this hard, and in 
an unclassified setting, we know many of the networks. What we 
can do, from DOE, is use our capabilities at the laboratories, 
our technology capabilities, and our connections with industry, 
which is vast, to educate them on lines of procurement that 
goes into Iran, to try to stop any dual-use equipment that 
could be used to help them build the nuclear program.
    Senator LeMieux. Thank you both, gentlemen.
    Mr. Chairman, I have other questions, but I want to defer 
to you. I know that you'll have questions for our panel here 
and perhaps I'll have an opportunity to ask some more questions 
later.
    Senator Bill Nelson. Thank you, Senator LeMieux.
    Mr. Baker, in the programs that the NNSA has to prevent 
Iran from getting materials and technology, you mentioned the 
export controls. Talk to us about the support of the IAEA, and 
talk to us about preventing nuclear smuggling.
    Mr. Baker. We're doing very much on nuclear smuggling, sir. 
We have many programs that help this.
    Number one, we have what we call a Second Line of Defense 
program where radiation detection units are put on borders of 
countries in Russia and also the former Soviet Union. What we 
do is stop things at the border that may be smuggled out of the 
country. Right now, we have identified 650 sites that we're 
trying to put radiation detection in, and we have 400 of them 
completed.
    What we're doing in Russia--and Russia is paying for half 
of this, and we're paying for the other half--or every spot 
around Russia, about 200 spots, is that we have put a fence 
around Russia with radiation detection to ensure things cannot 
be smuggled out easily.
    We also are working seaports. We have 100 seaports from 
which things are coming to the United States that we are trying 
to put radiation detection in. We have finished 27 of them. We 
will have another 13 done this year. We'll have the whole 
system done by 2015, covering all the megaport issues.
    We also work in export control. We are educating people on 
licensing of dual-use equipment. We're educating industry. 
We're educating the enforcers of export control laws on the 
danger of this stuff getting out.
    We have, sir, as you probably know, some cases in the 
past--I can't say much here--that things have been already 
caught by our systems on the borders of Russia.
    It is a system that is working pretty well. Like I say, we 
have to have triple phenomenology, if I can use that word, that 
we try to protect it at a source, but if that fails--and an 
insider is a big problem, we know, that could try to get this 
stuff out; they know the vulnerability of the system--we can 
stop them at the border or stop them at the seaports, and also 
educate everyone on export control rules. Hopefully--you don't 
ever know what you don't know--we're getting this done as 
quickly as we can. It's a very critical area.
    Senator Bill Nelson. Would you please characterize the 
cooperation by Russia, and characterize the cooperation of the 
host countries in those seaports?
    Mr. Baker. With Russia, generally, I can't tell you; with 
the customs people in Russia, there is a better relationship. I 
have the relationship right with the head of customs. He is 
really, really good to work with. There are parts of Russia 
where it's tougher. But putting this border security system up 
around Russia, customs has been very cooperative. They're just 
as scared as we are. It's worked really well in the nuclear 
smuggling area.
    On seaports, it's a little tougher but we know where 
they're at. When we go in and explain what we're trying to do 
to help to keep things coming from the United States, it's a 
little tougher, but we're succeeding. Just this last summit, we 
had a megaport agreement signed with Italy, and we had a 
megaport signed with Argentina. It is working. We have, if I 
can say this, sir, right now more agreements than we have money 
right now on megaports. So, it is working. It's a little 
different, a little more difficult than it is with Russia right 
now with customs, but it is working. I want you to know, we're 
doing everything we can to make it work even better.
    Senator Bill Nelson. Please describe the historical 
relationship with Russia, going back to Nunn-Lugar.
    Mr. Baker. I've been working with Russia for a long time. 
In the Nunn-Lugar days, it was tougher. Russia didn't trust us. 
They knew that they needed our help. I've gone into Russia, 
sir, in the middle-1990s, and I've seen things that I would 
like to tell you in person, that I don't want public. It was a 
scary time. When the Berlin Wall came down, many things became 
vulnerable, and Russia needed our help. They needed our help 
with giving clothing to the guards that guard the nuclear 
weapons. We had to build an accounting system for them. We had 
to build a regulation system for them. We worked really hard.
    But now, today, it seems like Russia has gone on 
personalities many times. I've seen things that I've never 
thought I would see, and I used to be war-planning advisor to 
President Reagan in the White House, so I was the guy that held 
the football for the President, and I saw things I used to 
target. They would show me these things. They know my 
background. But, I've been working with them; they know we're 
there to help them, and they know we're there not as spies, 
even though I've been called that before. The relationship has 
really improved over the years. It got a little tougher after 
the invasion of Georgia. But, Russians said, and we said, 
regardless of what happens with things, our work has to 
continue. This is the security of two great countries. It's our 
national security. Many times people ask me, ``Why are we doing 
this in Russia?'' It's our national security that we're 
concerned about; one nuclear device getting over here.
    It has been tough at times, but we've succeeded. Again, you 
don't know what you don't know, but they have shown us things 
that I'd never thought I would see. We've been in warhead 
sites. They took me to a place called West 19 not very long ago 
where all the warheads are. When Dr. Condoleezza Rice was here, 
she said that was the worst site she ever saw. We fixed it. Now 
it's just as good as Pantex or one of our other facilities. 
We're getting ready to take the Office of Management and Budget 
to that site to show them the type of work that we did on West 
19. So, we've seen things. They opened up to us.
    Now, when is the window going to close? I hope never. 
There's a great relationship between President Obama and 
President Medvedev. But, we know in 2\1/2\ years they're going 
to have an election in Russia, and there are two guys running, 
and one of them is going to win. I know the one who's going to 
win if they both run, but it is really a great relationship. 
President Medvedev and President Obama agreed in Prague, and 
they also agreed in this summit, that they will work closely 
together because nuclear terrorism is the biggest thing there 
is, and they both want to stop this.
    Right now, we have a bilateral commission headed by 
Secretary Clinton and Foreign Minister Lavrov. My boss, Dan 
Poneman, Deputy Secretary of Energy, and I work all the nuclear 
security in Russia and the nuclear energy. What we do every 6 
months is we lay out what needs to be done in Russia, from a 
security standpoint, and then we report on what we've done. 
Every 6 months. I just met with him 3 weeks ago, and we have 
another report. We'll do another report in June.
    This checklist goes to Secretary Clinton and then goes to 
the President to show everything we're doing in Russia and how 
we're accomplishing--it's like a metric.
    It's a long answer to your question, sir, but I'm 
optimistic the relationship will stay good for the next 3 
years, and hopefully we can get all the work done in Russia 
very soon.
    Senator Bill Nelson. How about the other parts of the old 
Soviet Union where nuclear weapons and materials were kept?
    Mr. Baker. The other parts of the Soviet Union have been 
pretty good. Right now we're blending down all the HEU in 
Kazakhstan. We're getting ready to do that with GTRI. We have 
an agreement that came out of the summit from Ukraine, where we 
can have all their HEU and bring it back. We're taking HEU out 
of Poland. We're also taking HEU out of Belarus.
    They've been cooperating pretty well. I can't give you an 
example. It's hard sometimes. It's really hard, and we have to 
work with them. Sometimes you have to give them a little more 
money than you wish you could to get the stuff out. But, it's 
our national security. If you look at DOE's budget on this, 
compared to the defense budget, well, you can't even see it; 
it's a little squeak. It's very low for, in my opinion, the 
biggest threat this country faces, as Dr. Nacht said.
    Senator Bill Nelson. All right. Let's address our support 
to the IAEA.
    Mr. Baker. Yes, sir.
    We are building more and more support for the IAEA. The 
IAEA needs help. They need technical people. We're getting 
people from our laboratories to volunteer to go and work. 
Another thing they need, badly, is new safeguards. Right now, 
we have a new safeguards initiative that is educating more 
people, expertise, better technology, measurements, and also 
better concepts on safeguards.
    For the last 30 years, we have lived with safeguards that 
should have been updated. But, now, during the nuclear 
renaissance, we have to build better safeguards for the IAEA, 
so we're building that. That's going very well. This committee 
has supported us very well in that. We have a 5-year window 
that we're building technology. We have 200 interns right now, 
post-docs, learning safeguards, so we won't have a brain drain 
on this for the IAEA. This is going very well with the IAEA.
    What we're working with IAEA is the Convention on Physical 
Protection. They call it IAEA 225. That regulation is what the 
IAEA makes all countries that have nuclear material hold to; 
this is what they check. We're updating that to make it 
tougher. After September 11, we had to change things. We're 
almost there, in a new IAEA 225, Revision 5, we call it. The 
President said this. He got commitments out of all 47 members 
that were here at the summit that they would push Revision 5. 
It's in 120-day review period right now.
    We're helping the IAEA have better safeguards. We're trying 
to give them more technology. The President said in Prague that 
he wanted to support the IAEA. I think we're doing that, to the 
best of our ability, to give them what they need to do their 
job.
    Senator Bill Nelson. Thank you, Mr. Baker.
    Mr. Baker. Yes, sir.
    Senator Bill Nelson. Senator LeMieux.
    Senator LeMieux. In terms of trying to secure the nuclear 
stockpile of the world, HEU, for example, I would assume that, 
when the Soviet Union fell and the Cold War ended, when we 
started our relations with Russia, that some kind of accounting 
was undertaken to determine where everything was. Do we have 
confidence that we know today where all the weapon-grade 
material is in the world?
    Mr. Baker. I think we do now. I think I can say in an open 
hearing that when we started this work in 1994, they didn't 
even know. We started it, and we've built procedures--I'm 
trying to keep this unclassified--that we know where the 
material was located. Now, again, sir, you don't know what you 
don't know, as I say. But, we think we have a good handle on 
it.
    Russia, I think, would admit back in those days they did 
not have a handle. We saw this when we went in there. I think 
today we do in Russia.
    We also think we know where all the HEU is in the world. We 
have a document, done by our Global Threat Reduction Agency, 
that shows where we think all the HEU is in the world also.
    We feel we have a pretty good handle on that. One thing we 
have not been able to do in Russia is to get into their serial 
production plants. These serial production plants--they won't 
let us in--are where they build weapons. We've secured about 
everything, or we soon will; we have 19 buildings to go and 
then we're finished. Then, we'll get into the sustainability 
area, which we're working right now in Russia. We've completed 
210 of the buildings. There's 229. In this fiscal year 2011 
budget, we're asking for money to finish these 19 buildings in 
Russia. All the Ministry of Defense work is done. The warhead 
sites are done. We took half of those and secured those, and 
DOD took the other half and secured them. Like West 19 I was 
telling you about, it was a facility that we did. They're 
secure.
    We think we have a fairly good handle on it. Matter of 
fact, I'll leave it at that. It is a fairly good handle. We 
don't know, maybe, if we got it all. But, we do have a document 
that shows where it's at in Russia. We do have a document that 
shows where the HEU is throughout the world. In our GTRI, our 
goal is to protect 200 reactors. That's our goal. Right now, we 
have converted 63 reactors. We converted or shut down 71 of 
them, together. Some of them just shut down; we didn't have to 
convert them.
    Senator LeMieux. Can I interrupt you for a second?
    Mr. Baker. Yes, sir.
    Senator LeMieux. The 200 reactors, is that focused on ones 
that can create material that can be used for weapon 
production, as opposed to just ones that are for domestic 
electric production?
    Mr. Baker. All of this is that they can make a weapon. This 
is HEU.
    Senator LeMieux. Right. So, you've not only mapped out 
where all the material that's already existing may be, but 
then, are also trying to reduce that material. You're also 
trying to secure the areas where it could be created so that it 
doesn't get out into the world.
    Mr. Baker. Yes, sir. We are.
    Senator LeMieux. What efforts, if any, has the United 
States undertaken with China to work in a similar collaborative 
fashion as we are doing with Russia?
    Mr. Baker. I can tell you what we do in China. China is a 
country that many people think ought to pay their own way. We 
have worked with the civilian sector of China; we have not 
worked with the military section. What we have done with the 
civilian sector of China, one, China has converted two of their 
reactors from HEU on their own to LEU; they paid the money, $30 
million. We have four neutron reactors in China that we want 
them to convert. They have to have a special type of fuel to 
convert these, so we're helping them build that special type of 
fuel to convert these reactors. From these neutron reactors, 
there are other places, like Pakistan and other ones, and we're 
going to try to convert them.
    We have what we call a ``Peaceful Uses of Nuclear 
Technology,'' called PUNT, in China, and that's to work with 
them on safeguards, to educate them on export control, and to 
educate them on nuclear technology and on dual-use equipment. 
We have worked that with China, and, basically, at no cost to 
us. We ran a prototype detector on a megaport in China. One 
megaport. They paid for the equipment. We provided the 
expertise. We hope to do more in China besides one megaport, 
but they wanted to see us demonstrate how to use one.
    What we have right now is a goal that China will pay at 
least 60 percent of this, and maybe 70 percent of the work we 
do, and we pay the 30 or whatever percent left.
    China is not going to be a Russia at all, but we are 
working with them on these things that are so important, like 
nuclear smuggling. It's gone fairly well, and we hope to do 
more. But, on the military side, they don't want any part of 
us.
    Senator LeMieux. One final topic I'd like to raise with you 
goes back a little bit to what we first started with. We know 
that there are countries who are going to want to have nuclear 
power. There are peaceful countries. I have a list here of the 
countries around the world who have nuclear reactors, some in 
places that I didn't know had reactors, a total of 437, 
according to this document from March 31, around the world.
    Right now, Iran's saying it wants nuclear energy for 
peaceful purposes. We doubt that very much. But what happens? 
What should we be doing going forward? I know, Mr. Secretary, 
you've made a career out of studying policy. This seems to be 
about as difficult of a policy question as one can imagine; 
when we have difficult states, when we have rogue countries, 
when we have Iran. But, it's not going to just be Iran, it's 
going to be Syria; it's going to be Venezuela; it's going to be 
other countries that are going to say that they're going down 
this same path that North Korea went down and Iran is on, which 
is, ``Well, we want it for peaceful purposes,'' and then all of 
a sudden there's a bomb.
    How do we, as part and leader of the international 
community, handle this trend, which we know will occur? Is 
there a way that we can set up some kind of international 
regime that will deal with these types of states wanting 
nuclear energy which we believe will be pretextual for them 
obtaining a weapon?
    Dr. Nacht. Thank you for that question, Senator. The whole 
premise of the NPT was to facilitate the growth in the use of 
nuclear energy for peaceful purposes while closing off the 
nuclear weapons option. Despite all of our difficulties with 
Iran and North Korea in recent years, actually all things 
considered up to now we've been rather successful. There are 
only a handful of countries that are not members of the NPT or 
have really not behaved properly with respect to the NPT.
    We hope that in the NPT Review Conference next month in New 
York, one of the outcomes will be a strengthened treaty regime 
which will make it more difficult to withdraw from the treaty 
and which will provide more incentives by strengthening the 
IAEA for growth of peaceful programs while closing off the 
nuclear weapons option.
    Also, in the NPR that DOD just recently produced, we note 
that countries that are non-nuclear weapon states and that are 
in full compliance with their nonproliferation obligations, 
that those countries would not be the subject of use or 
threatened use of nuclear weapons by the United States. 
Whereas, countries that are not in compliance with their 
nonproliferation obligations, as Secretary Gates said, all 
options for the United States are on the table. We are 
providing both incentives and disincentives for states not to 
go down the nuclear road.
    We know that some states are concerned that, if Iran 
acquires nuclear weapons that their security is threatened; it 
might stimulate their own interests. We're working very hard, 
diplomatically and with our own counterparts at the military 
level, to ensure that they are--especially our allies and 
partners--secure.
    Senator LeMieux. There is significant concern of an arms 
race in the Middle East with countries like Saudi Arabia and 
others who wanted weapons.
    Dr. Nacht. Yes. Prominent figures in the field, like former 
Secretary of Defense Bill Perry and others, have characterized 
the current situation as a tipping point, where perhaps several 
additional states could go down the nuclear road if we don't 
solve this problem. We're very aware of this, and we have a 
wide variety of activities underway with every one of these 
governments to try to provide the incentives and assure them 
that it's really not the way to go, to go down the nuclear 
path.
    This is even true with our NATO allies. We have several 
European countries that looked at nuclear options years ago, 
and they foreswore them because they're under the nuclear 
security guarantee of the United States as part of Article 5 of 
the NATO treaty. We don't want any of those countries to 
rethink their idea, so we want to, in fact, strengthen our 
extended deterrence relationships with every one of these 
countries. It's really a multifaceted strategy.
    At the same time, we realize that because of climate change 
concerns, because of fossil fuel supply uncertainties, for a 
variety of reasons, nuclear energy for peaceful purposes is 
probably going to grow, and perhaps grow quite considerably 
over the next several decades. The challenge will only increase 
for us, increase for the IAEA, increase for DOE and DOD, to 
play a meaningful role, to make sure countries understand that: 
peaceful path, no problem; weapons, not desirable, not 
permitted. The strategy keeps evolving because the players 
evolve, the technology evolves, and some of the policy issues 
evolve.
    Senator LeMieux. I think the challenge we have is that, as 
we progress in the modern world for some of these rogue states, 
having the capability of nuclear power even is a marquee; it is 
something that brands them in the higher echelon of states 
around the world. They want that branding. It's one thing for a 
country to agree and say, ``We're not going to seek nuclear 
weapons,'' but when you can't trust the country to start with, 
and they're say a country like Syria, who we believe is further 
assisting in getting missiles to Hamas and Hezbollah; if a 
country like that says, ``Okay, well, we want a nuclear power 
plant for peaceful purposes,'' just like with an Iran, you 
don't believe them. How does the world community set up a 
structure--and maybe this is part of what you're working on--
ahead of the problem so that we're not being reactive to a 
country that now says, ``We're building a reactor, we're 
building a nuclear power program.'' How do we get ahead of it 
so that there's some kind of sanctioning that's going to have 
to occur for, not just, ``We want to have a weapon,'' but also, 
``We want to pursue nuclear energy''?
    Dr. Nacht. The country that you mentioned, Syria, is a 
member and a part of the NPT. If they want to move further into 
the ``nuclear energy for peaceful purposes'' area, they have to 
work with the IAEA, which is to not only facilitate their work, 
but to also ensure that there's no weapons activity related to 
this peaceful purposes.
    Mr. Baker. There are hundreds of reactors
    Dr. Nacht. We need to strengthen the IAEA, as Ken Baker has 
said, because they don't have enough resources and enough 
capability at the moment to do the kind of job we all think is 
needed. At the same time, we have to demonstrate, perhaps with 
other countries, like Iran--which Syria will pay close 
attention to--that, to move down the road will incur tremendous 
disadvantage, tremendous pain to them, so they should have no 
incentive of any kind to think about diverting any peaceful 
nuclear program for weapons.
    Mr. Baker. There are 189 countries that are members of the 
NPT, and Article 2 of the NPT says they can build nuclear power 
for peaceful uses. What we're doing--DOE's doing--is this 
Advanced Safeguards Program that we're trying to give the IAEA. 
Once a country gets nuclear power, proliferation becomes a 
bigger problem, so the IAEA challenge, as Dr. Nacht said, is 
greater. We have to give them better safeguards.
    We also are helping countries have a better export control 
system. We're working with many countries getting tighter 
control on nuclear weapons. But, if they're a member of the 
NPT, and Article 2 says they can do that, as Dr. Nacht said, 
you can't very easily stop them, but you have to have controls, 
you have to give the tools and capabilities to the IAEA to make 
sure they're not doing something else.
    Senator LeMieux. Iran's a signatory to the NPT, right?
    Mr. Baker. Yes, sir, they are.
    Senator LeMieux. North Korea was, and then they backed out?
    Mr. Baker. They've withdrawn.
    Senator LeMieux. So, there's no teeth on the back side of 
this?
    Dr. Nacht. Sir, this is what we're engaged in right now, 
which is a tough sanctions program that we're developing toward 
Iran, and a tough sanctions program that's been implemented and 
may further be strengthened against North Korea.
    To have targeted sanctions, to have penalties to the 
leadership, penalties to those who make the decisions, in order 
to, hopefully, change their policies.
    Senator LeMieux. Thank you, Mr. Chairman.
    Senator Bill Nelson. Dr. Nacht, the DOD CTR program is also 
going to play a role in the global lockdown effort. What is the 
DOD plan to achieve that goal?
    Dr. Nacht. We're currently engaged in several activities, 
and we're seeking additional funding for CTR, specifically 
related to the global lockdown. Funding for spent naval fuel 
and fissile material disposition in Russia--several of them are 
Russia-related; site security enhancement in Russia; and 
automated nuclear warhead inventory control in Russia. These 
are building on longstanding CTR programs we've had with the 
Russians. By the way, I should add in response to some of the 
previous questions, DOD's relationships with the Russians at 
multiple levels are really quite good, from the very highest 
levels of military officials and political leaders to people in 
more technical capacities and people at the working level.
    In addition, as part of the global lockdown we are seeking 
funds to establish Nuclear Security Centers of Excellence 
outside the former Soviet Union, one in India and one in China; 
each has somewhat different objectives. These centers will 
assess equipment and manpower; they'll provide material 
security training; they'll demonstrate enhanced security 
procedures and processes; and they'll provide lessons learned 
without having to be directly at the site of where weapons are 
located.
    Again, it's an effort to work together and to enlist in 
these cases Indian and Chinese support, which is central as 
trying to facilitate the global lockdown.
    By the way, I should also add in response to a previous 
question there was a strategy. In developing the strategy for 
the global lockdown, the work for the global lockdown that just 
happened has been in place for a long time; there was an 
interagency assessment that was commissioned, and a 
comprehensive classified assessment was done, of where the 
material is. We can't say for certain that we know where 
everything is in every country, but we're quite confident that 
it provides the sound basis for moving ahead on the global 
lockdown process.
    A number of activities in Russia, and some new centers 
outside of Russia, are the elements of about $74 million in 
additional funding for how CTR will contribute to the global 
nuclear lockdown.
    Senator Bill Nelson. What about in those countries of the 
former Soviet Union outside of Russia?
    Dr. Nacht. We've had longstanding activities there, where 
we've been involved in Kazakhstan, for example, and in a number 
of other countries of the former Soviet Union. We're also, as 
part of CTR that was not only nuclear, deeply involved on the 
biological and chemical weapons side as well. There's a lot of 
consultation activity in trying to identify sites, build 
support for the Biological Weapons Convention, and the Chemical 
Weapons Convention verification procedures. It's a multifaceted 
activity in a number of countries for nuclear, chemical, and 
biological weapons.
    Senator Bill Nelson. All of the areas that the Soviet Union 
had nuclear material and weapons, outside of what is today 
Russia, you feel good about a lockdown?
    Dr. Nacht. We're very intent on achieving the President's 
goal of locking down this material in 4 years, but it's tough. 
We learned about uranium in Kazakhstan quite a long time ago, 
and it didn't actually initially come through the Intelligence 
Community. I think it would be misleading to say that it's 
going to be a totally comprehensive, air-tight system that we 
know of in advance. We're going to have to roll up our sleeves, 
work in these countries, work with them, build momentum, and 
show that cooperation in the global nuclear lockdown is in 
everybody's interest. I think as we do that we're very hopeful 
that we can achieve the President's goal.
    Senator Bill Nelson. Would you provide to the committee, in 
classified form, your analysis, or analyses done previously, in 
between the time that the Soviet Union was disintegrating in 
late 1991 up to when the Nunn-Lugar program started, where you 
all, in Nunn-Lugar, were actually on the scene? Would you share 
with the committee in classified form the answers to the 
obvious questions? Was that material secured? What possibly was 
not secured? What is its viability today, if it were unsecured, 
and so forth?
    [The information referred to follows:]

    [Deleted.]

    Senator Bill Nelson. Thank you very much for doing that.
    Now, are the global lockdown activities of the CTR program 
and the NNSA programs coordinated?
    Mr. Baker. I can start. I can say: absolutely. Coordination 
has been good the last few years. One example is the Ministry 
of Defense sites in Russia. When Russia said, ``Come in and do 
our warhead sites,'' we worked with DOD. Like I told you, sir, 
we did half of them, they did half. We coordinated very well 
together. On this 4-year lockdown, as Dr. Nacht said, we will 
get the job done. We have decided, basically, what lanes we're 
in, who's going to do what, and where. We meet with DOD quite 
often. Matter of fact, we have a big meeting with DOD just 
tomorrow to discuss this 4-year plan even more. In my opinion, 
from a DOE perspective, it is working extremely well.
    Dr. Nacht. Yes, and I would say, really, the same thing. 
Sometimes cooperation in some areas leads to cooperation in 
other areas. For example, we've just gone through a very 
intensive experience producing the NPR, and there was really 
intimate involvement by NNSA, the NNSA leadership, and the DOE 
leadership in the production of that report. All the signals, 
all the incentives, from the top leadership of our departments 
is to encourage more collaboration at other levels, including 
in CTR, which has been going on very well for many years. We 
know we have to work together because we each bring different 
perspectives and different expertise to the table.
    Senator Bill Nelson. Mr. Secretary, does DOD know the full 
extent of the material involved in this effort for which you 
all have responsibility?
    Dr. Nacht. For the global nuclear lockdown? Yes, as I 
mentioned, there was a major study--it's a classified study--
done before the rollout for the global nuclear lockdown, and 
that is really the basis for our understanding of what we have 
to go after to achieve the President's goal in 4 years. That's 
been shared with the interagency.
    Senator Bill Nelson. Your testimony is that you think that 
other countries are sharing our concern about these materials?
    Dr. Nacht. Absolutely. I think the President has been 
extraordinarily effective in communicating the seriousness of 
this problem. Even as recently as a few years ago, prominent 
Russian figures spoke openly about their skepticism about 
nuclear terrorism. They were happy to work with the United 
States on securing some of their own sites, but they didn't 
really think that problem at least was their problem. Now, I 
think they're fully aware; I know that they're fully aware of 
the seriousness of the problem, both because of the nuclear 
proliferation issue that we've discussed already, and also 
because of the terrorism issue that they've experienced in 
their own Moscow subways.
    The President, through the combination even recently of the 
NPR and completing the New START and the Nuclear Security 
Summit, all leading up to the NPT review conference, and his 
statement earlier last year in September at the U.N. at the 
opening of the General Assembly, all are really having an 
effect on heightening awareness and support around the world 
for this problem. As we know, 47 national leaders met in the 
United States; it was the largest group of its kind since San 
Francisco in 1945.
    Senator Bill Nelson. I must say that I was pleasantly 
surprised that, on fairly short notice, that many leaders 
showed up.
    Dr. Nacht. Right.
    Senator Bill Nelson. It does, indeed, express their 
concern.
    Mr. Baker. I think, sir, that this summit, at least in my 
experience in nonproliferation, was the biggest thing to ever 
happen. I do believe, like Dr. Nacht, that they all are 
committed; they all are just as scared as we are. If you look 
at the initiatives that came out of the summit, it was more 
than we expected. Some people in the White House said it was 
five times better--I won't name names--than they ever thought 
it would be. If they're going to do this again in 2 years in 
South Korea, it's going to keep emphasis high in nuclear 
security.
    Senator Bill Nelson. I think you're right. I think what 
they're waking up to is, if a terrorist attack can occur in the 
Moscow subway, it can occur anyplace.
    Mr. Baker, is Russia fully committed to taking back the 
original Russian material?
    Mr. Baker. Yes, sir. We have taken back most of it. We have 
some left. But, they have been really easy to work with. What 
we have, every 6 months we go to Russia or they come here--most 
of the time we go to Russia--we lay out the schedule for the 6 
months on takeback of Russian fuel. This has worked very well. 
We had some complications, like we can't pass fuel through 
Kazakhstan, so we had to take some of it by train and then by 
boat around to Mayak, Russia, where it was going to be stored. 
We have it there. Russia is on board with us, sir, 100 percent.
    Senator Bill Nelson. Are other countries willing to pay 
part of the cost to secure this material?
    Mr. Baker. On this, most of the costs have been with us. 
They're willing to give up the HEU if we can convert the 
reactor to LEU, but most of the cost, on this Russian takeback, 
has been on our shoulders.
    Senator Bill Nelson. What about plutonium?
    Mr. Baker. Plutonium, we have a little plutonium that we're 
trying to bring back, or bring back someplace, from one of 
these countries of which I'd rather not say in public. But, 
plutonium will take time. We have this agreement with Russia 
now to get rid of 34 tons. I know that's not all of it, but, I 
think, as this goes along and they burn 34 tons and we burn 34 
tons--like I said, that can make 17,000 weapons--in my opinion, 
time will tell, they will continue to burn more and more 
plutonium in the reactors, just like we will continue. 
Hopefully, the momentum will not stop with 34 tons of plutonium 
in each country.
    Senator Bill Nelson. Mr. Baker, you had talked earlier 
about the disposition of 34 metric tons of weapon-grade 
plutonium by converting it to the fuel for the commercial power 
reactors. The facilities were originally supposed to be 
operational by now, but now they've been delayed until 2016. 
It's a hefty cost. The Government Accountability Office 
completed a report that found that the project may not have 
enough plutonium feedstock. What is NNSA planning to do to make 
sure the plutonium is available?
    Mr. Baker. Sir, we're working that problem right now. We 
have, we know, 9.6 metric tons of plutonium right now that we 
can burn. It depends on how fast you burn it through the MOX 
system. The MOX system is able to burn 3 metric tons of 
plutonium a year in their reactor. So, we do have a problem on 
feedstock. We're working that right now. We're trying to find 
out where because the pit disassembly plant has been delayed, 
and we haven't even gone to Critical Decision-1 with the pit 
disassembly plant. We're concerned, but we're working that 
problem hard. We have both environmental management people, in 
DOE and NNSA, working together to make sure we have feedstock 
to burn through that MOX system when it comes on in 2016.
    But, it is a problem, and I will keep you advised, sir, how 
we're working this. Hopefully, we'll find a solution for it.
    Senator Bill Nelson. Dr. Nacht, DOD is now doing a task 
force that is going to be available to destroy WMD. Tell us how 
it's going to be organized, who's going to participate, how are 
they going to be trained, and what is the needed funding.
    Dr. Nacht. Thank you, Senator. Yes, we've requested $22 
million initially against this effort. This is the JTFE 
headquarters, which would be developed in conjunction with 
SOCOM, to locate, characterize, secure, disable, or destroy WMD 
in, potentially, a conflict or other semi-permissive 
environment, not a peaceful environment.
    Our QDR identified preventing proliferation in WMD as a top 
priority for DOD. This is the first time, really, that this has 
happened. That's also having an effect on senior civilians in 
DOD, senior military, the combatant commanders, and others. 
They are elevating in their own minds, their own activities, 
and their own planning: stopping and dealing with WMD in their 
daily work.
    Having called it a top priority for DOD, we're now 
establishing this study headquarters for WMD elimination. The 
Joint Chiefs of Staff study is underway. The Secretary of 
Defense will make a decision down the road about the precise 
nature or the characteristics of the center. All I can say is, 
we're in the early stages of studying how this would be set up.
    SOCOM will be a central player in these activities.
    Senator Bill Nelson. How does this fold into the lessening 
of warheads that will be required under the new treaty?
    Dr. Nacht. That's a somewhat separate activity. We have a 
treaty with the Russian Federation, assuming it's ratified by 
the Senate and the Russian Duma, that will enter into force 
sometime this year and will lead to the reduction of the number 
of deployed strategic nuclear warheads. Those reductions will 
take place by the respective governments and will be verified, 
both collaboratively and by national technical means, on both 
sides. That's something we have a lot of experience on, going 
back to SALT I, back in 1972. We have almost 40 years of 
experience of doing this with the Russians. This treaty has its 
own special characteristics, but I think we're very confident 
it's a highly verifiable treaty. That's separate from this 
activity, which is really to, if necessary, disable or destroy 
WMD in the hands of folks that we think are very antithetical 
to U.S. national interests. It's much of a special ops kind of 
activity.
    Senator Bill Nelson. All right. I think what you ought to 
do is come also to the committee in a classified session and go 
through some of that with us.
    Dr. Nacht. On the JTFE, yes? I'm happy to do that.
    Senator Bill Nelson. Yes, and perhaps bring in Admiral 
Olson's folks on that as well. Is the CTR program going to play 
a role in any aspect of that task force?
    Dr. Nacht. Yes, I think, absolutely. The work on CTR and 
related aspects of dealing with WMD proliferation is a 
community within DOD. Some of our experts are sitting right 
behind me, such as Deputy Assistant Secretary Hersman and her 
team in Policy; we have other key people on the Joint Staff 
that we work with in the Services, in Under Secretary Carter's 
organization, Acquisition, Technology, and Logistics, including 
Mr. Weber, the Assistant to the Secretary of Defense for 
Nuclear, Chemical, and Biological Defense Programs. We have a 
whole community, and we work on all of these activities really 
very closely together.
    There's also an international dimension. We talk to NATO 
about this. We're involved with countries around the world 
through PSI. It's quite comprehensive, but it's really quite 
coherent. I think, unquestionably, it is a growing priority for 
DOD, reflecting what the President has said, that the 
likelihood of global nuclear war is low, but nuclear attack is 
not low, and we need to elevate nuclear proliferation and 
nuclear terrorism as the top security concerns in the nuclear 
area.
    DOD is responding. It is responding to this directive.
    Senator Bill Nelson. You spoke as if the treaty just 
announced by the U.S. and Russian Presidents was going to be 
confirmed later this year. Do you know something that I don't 
know?
    Dr. Nacht. ``Hopefully.'' I said ``hopefully'' that you 
would consent to ratification in this calendar year. Whenever 
you consent to ratification. We can't move forward with the 
elements of a treaty until it's in force. It doesn't enter into 
force until the treaty has been consent to ratified and has 
been deposited in the national capitals and in Geneva. Until 
that is done, there won't be any action taken. We're hopeful 
that Senate consent to ratification will be done in calendar 
year 2010, but you would know far better than I.
    Senator Bill Nelson. I'm hopeful, as well.
    Are both the CTR and the NNSA nonproliferation programs 
executable? Both of you have requested additional funds for 
fiscal year 2011. Can you use those funds in a timely fashion?
    Mr. Baker. The short answer is, yes, sir. We had very low--
last year, in our program that is part of the 4-year plan--
uncosted balances. In GTRI last year, we had $8.6 million 
remaining uncommitted. The MPC&A program, which is securing 
things in Russia and other places, we had $7.6 million. We 
think every penny that the President is asking for can be 
spent, or most of it can be spent. We will have uncommitted 
down below double digits. We are off, as hard as we can, 
working the 4-year plan.
    Dr. Nacht. In DOD, by far the two biggest areas where we're 
seeking additional funding are to support the global nuclear 
lockdown, which we've discussed now at some length, and in 
BTRP. We've actually cut funding in a number of other areas to 
reduce the additional amount of funds that we are requesting. I 
can tell you, as someone who's personally involved in this, 
this went through an incredibly intensive scrubbing within DOD 
with folks who, in the comptroller's office, look at program 
analysis and evaluation, with folks who look at technical 
feasibility, the policy community, the acquisition community; 
they all worked very intensively to come up with requested 
funds that were fully executable, and they're fully consistent 
with the President's top priorities.
    They also, and I would say, funding reflects importance to 
some degree; the fact that there's increased funding for these 
areas is another tangible signal that DOD is really taking 
these areas as very high priorities. The Secretary of Defense 
is extraordinarily supportive of this effort.
    Senator Bill Nelson. In the DOE budget you have included 
funds for space-based nuclear detectors. Your budget says that 
these sensors are going to fly on Global Positioning System 
(GPS) satellites and on Space-Based Infrared System (SBIRS). 
There is legislation mandating the maintenance of the 
capability provided by these detectors. Yet, the Air Force no 
longer has the nuclear detection sensor manifested on a SBIRS 
satellite. What do you understand is the status of these 
nuclear detection sensors on the SBIRS satellite?
    Mr. Baker. We are still building. If I can, sir, I'll give 
you a more expanded answer for the record, if it's okay.
    But, we have expanded, and we have continued to build, 
nuclear detection sensors. You are right; it's been a struggle 
with the Air Force on launching these things. We're trying to 
work that right now. We have a commitment in DOE to continue to 
build these sensors, and hopefully they will fly on SBIRS one 
day, or however they get up there. But, if I can, I'd like to 
provide you a more detailed classified answer to that question. 
There is a problem here, and I agree with you.
    [The information referred to follows:]

    [Deleted.]

    Senator Bill Nelson. Thank you. We've had some problems 
with the SBIRS also, so let's get into that in an appropriate 
setting.
    Mr. Baker. Yes, sir.
    Senator Nelson. Now, let me ask you, Mr. Baker, the Library 
of Congress is running a program called the Open World Program. 
It works with Russia to develop broader understandings between 
Russian folks and American folks. It's focused on civil society 
with extensive judicial, legal young leaders, and regional and 
local governmental exchange programs. It's sponsored 
nonproliferation programs focused on export controls and 
technical safeguards.
    The Russian participants in these programs have visited our 
national laboratories and had discussions about the 
nonproliferation programs. The Library of Congress would like 
to continue to partner with NNSA to expand the program to the 
Ukraine.
    Are you willing to discuss this initiative with the 
director of the program, to see if there are areas of mutual 
interest?
    Mr. Baker. Absolutely, sir. It's a good program the Library 
of Congress is running. The Library of Congress has been 
working with Pacific Northwest's lab and our lab in Oak Ridge. 
We support our national labs' involvement, and we will continue 
to support this endeavor by the Library of Congress.
    Senator Bill Nelson. Does any of the staff have any more 
questions? [No response.]
    Okay, gentlemen, this has been a very illuminating hearing. 
We want to thank you for the hearing. We want to thank you for 
your public service.
    The hearing is adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
